<html>
<title> - [H.A.S.C. No. 116-34] NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITY IN NORTH AND SOUTH AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                     
 
                         [H.A.S.C. No. 116-34]

                      NATIONAL SECURITY CHALLENGES

                     AND U.S. MILITARY ACTIVITY IN

                        NORTH AND SOUTH AMERICA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 1, 2019                            
                              
                              


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ______
                          

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-501                  WASHINGTON : 2020
 


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                Chidi Blyden, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                          Rory Coleman, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Faller, ADM Craig S., USN, Commander, U.S. Southern Command......     8
O'Shaughnessy, Gen Terrence J., USAF, Commander, U.S. Northern 
  Command........................................................     6
Rapuano, Kenneth P., Assistant Secretary of Defense for Homeland 
  Defense and Global Security, Department of Defense.............     4
Wheelbarger, Kathryn, Acting Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense..........     6

                                APPENDIX

Prepared Statements:

    Faller, ADM Craig S..........................................    97
    O'Shaughnessy, Gen Terrence J................................    72
    Rapuano, Kenneth P., joint with Kathryn Wheelbarger..........    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Cisneros.................................................   121
    Mr. Gaetz....................................................   121

Questions Submitted by Members Post Hearing:

    Mr. Cisneros.................................................   126
    Mr. Langevin.................................................   125
    
    
    
 NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITY IN NORTH AND 
                             SOUTH AMERICA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Wednesday, May 1, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. All right, then. We will call the meeting to 
order. Thank you all for being here.
    This morning we have testimony from the Northern Command 
and the Southern Command, and it is a very topical time to have 
both of them in. There is a lot going on in both areas. We will 
have four witnesses with opening testimony.
    We have General Terrence O'Shaughnessy, who is the 
commander of the U.S. Northern Command; Admiral Craig Faller, 
who is the commander of the U.S. Southern Command; the 
Honorable Kathryn Wheelbarger, who is the Assistant Secretary 
of Defense for International Security Affairs; and the 
Honorable Kenneth Rapuano, Assistant Secretary of Defense for 
Homeland Defense and Global Security.
    And as I was mentioning when I went out with these two 
gentlemen earlier, we do not have to say this will probably be 
your last time before you testify before us. We have had a lot 
of turnover and a lot of folks coming before us for the last 
time. But both of you, I think, far as we know, going to be 
here for a little while.
    Before we begin, an apology. Didn't want to start on a sad 
note.
    Some of us up here served with Ellen Tauscher, who was a 
member of the Armed Services Committee for a little over 12 
years. She passed away this week, very sadly. I came into 
Congress actually in 1996 with Ellen, served in this committee 
with her for her whole time before she moved over to the Obama 
administration to engage in arms control discussion with the 
Russians.
    Ellen was a terrific person and a great member of this 
committee. She will be missed by many and I just want to 
express my condolences and sympathies for her family and 
friends and just mention what a great pleasure it was serving 
with her and appreciate her service to our country and to her 
district.
    Mac, did you want to say anything?
    Mr. Thornberry. Thank you, sir.
    I would just add that I think Ellen reflects the best of 
the bipartisan traditions of this committee. She worked on both 
sides of the aisle, especially on nuclear arms control issues. 
A wonderful, warm, caring person, and I think we are all going 
to miss her but also continue to benefit from the example she 
set for both of us. And I appreciate the opportunity to say 
that.
    The Chairman. Thank you. And with that, as I mentioned, we 
are having the testimony from the Southern Command and the 
Northern Command. And it is a very, very interesting time. I 
think the most topical thing right at the moment to hear from 
the Southern Command is on the issue of Venezuela, and what is 
happening down there, really, minute by minute.
    There is a lot going on in that area, and I do want to 
emphasize how important it is to get a stable government in 
Venezuela and, in my belief, that the Maduro government is not 
legitimate. The facts, I think, make that clear, and the 
devastation throughout Venezuela shows how their leadership has 
impacted that country.
    The statistics are staggering. The incredible rise in 
poverty and malnutrition, the people who are displaced. It is 
devastating for Venezuela, but it is also devastating for the 
region. Some of us were on this committee when we passed Plan 
Colombia and we have worked with Colombia for literally decades 
now to try to combat the narcoterrorists down there and really 
made an enormous amount of progress.
    That progress is threatened by the instability in Venezuela 
as refugees pour across the border and as various criminals, 
terrorists, and violent organizations take advantage of that 
instability. You know, trying to get back to a more stable 
situation in Venezuela is enormously important.
    We will also be very interested by the role that both Cuba 
and Russia are playing in that region, as Russia in particular 
attempts to expand their reach. We have seen, obviously, what 
they have done meddling in Europe and in the Middle East, but I 
think this is instructive of just how ambitious President 
Putin's plans are to spread Russia's malign influence 
throughout the globe. We will be interested in hearing about 
that.
    And the broader, overarching issue with Southern Command is 
almost always the drug trafficking. How we can contain the 
drugs that flow south to north. And the one piece, and I spoke 
yesterday with Admiral Faller about this, is we have to focus 
on a, I believe, total approach to this and look at the demand 
side of this.
    If there was not the demand in the United States of America 
for these drugs, they wouldn't come, and as long as the demand 
remains as high as it is, it is going to be incredibly 
expensive and difficult to stop them. So I think it would be 
instructive not to just try to stop the drug cartels from 
shipping them north but what can we do to combat the entire 
problem? A whole-of-government approach. You know, working with 
people here domestically in the United States to try to reduce 
the demand for drugs.
    And Northern Command, obviously, we are very focused on the 
southern border. I have given speeches about that before. I 
won't take this moment to do that. But we do have a significant 
challenge on the southern border right now.
    The sheer number of people who are flowing towards the 
border is overwhelming our ability to process the asylum-
seekers that are coming. And we need to come up with a plan for 
that because, right now, the only thing that I would hope we 
can all agree on is what we are doing now is not working.
    So I would appreciate some insights about how we can change 
that to try to address the situation. I would only offer one 
specific thought--again, you know, like with the drugs, 
focusing on stopping them from coming in as opposed to stopping 
the demand is perhaps the wrong approach.
    When it comes to the border, folks say, how can we stop 
these people once they get here?
    We have to figure out some way to change the equation so 
that they don't want to come. The best way to do that is to 
have greater prosperity and stability in the countries that 
they are coming from. They are fleeing violence, poverty, and 
hopelessness. Until we replace those things, it is hard to 
imagine that they are going to stop making that choice.
    So we are going to, again, need a comprehensive approach to 
addressing that problem and challenge, and I look forward to 
the testimony from all four of our witnesses.
    And with that, I will turn it over to the ranking member, 
Mr. Thornberry.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses. Appreciate each of you being here.
    All of us are intensely focused on the developments in 
Venezuela.
    A week before last, I had the opportunity to be there on 
the border and to listen to some of the thousands of people who 
are streaming across that border every day and hear their 
desire to be freed from oppression and to have a chance for a 
better life. As you said, I think we all have something at 
stake here.
    I am also very disturbed by the reports of Russian, Cuban, 
Chinese, other interference there. For example, I think the 
Secretary of State has said that Maduro was ready to leave 
yesterday but the Russians wouldn't let him. So there is a 
tremendous concern not only about the people of Venezuela but 
about foreign manipulation that prevents the people of 
Venezuela from having a better life. And of course, a lot of 
that is directed against us.
    I would also just say that my takeaway from visiting at 
least three of the countries in South America was we have 
tremendous opportunities there. Tremendous economic, security, 
all sorts of opportunities, but we also have significant 
concerns. Chinese involvement and the Russian, Iranian, other 
things that you have mentioned.
    A lot of issues to talk today and, obviously, protecting 
the homeland is absolutely central to the purpose of the 
Department of Defense and the Federal Government, and there are 
a variety of concerns that we have.
    Last thing I would say is, and it goes beyond the scope of 
this committee and this hearing, but I completely agree with 
your statement that we need a more comprehensive approach to 
deal with the challenges at the southern border. Part of that 
is helping the countries of Central America so that people have 
a safer place to stay. Part of it, in my opinion, is the asylum 
laws in the United States. Part of it is doing better for the 
Department of Homeland Security so they can do their job, 
rather than rely on the military.
    A lot of that is beyond our scope. I know we will talk 
about some of those aspects. The key thing is, maybe more so 
than at any time I have been on this committee, our own 
hemisphere is at stake with American national security in ways 
that I think it hasn't been before.
    And so, I think it is appropriate to have these witnesses 
and I look forward to hearing their testimony.
    The Chairman. Thank you.
    Mr. Rapuano, we will start with you.

STATEMENT OF KENNETH P. RAPUANO, ASSISTANT SECRETARY OF DEFENSE 
FOR HOMELAND DEFENSE AND GLOBAL SECURITY, DEPARTMENT OF DEFENSE

    Secretary Rapuano. Chairman Smith, Ranking Member 
Thornberry, and distinguished members of the committee, I am 
honored to be here with General O'Shaughnessy, Admiral Faller, 
and Assistant Secretary Wheelbarger.
    For the Department of Defense, defending the homeland is 
our highest priority. Our homeland, once a sanctuary, is 
threatened by potential adversaries that are developing a wide 
range of capabilities to threaten the homeland. Our adversaries 
are developing these capabilities to threaten or to commit acts 
of aggression against the United States. Their actions are 
intended to limit U.S. response options, thus preventing us 
from our defending our allies and partners.
    China and Russia, by far our most advanced potential 
adversaries, increasingly developing 21st century technologies 
to hold the U.S. homeland at risk; employing systems intended 
to deny our advantages, delay our warning time, and likely 
target our civil infrastructure. These capabilities include 
anti-satellite systems, hypersonic glide vehicles, and advanced 
cyber capabilities.
    While North Korea has not conducted any nuclear-capable 
missile tests in more than a year, it retains weapons of mass 
destruction. North Korea also possesses cyber capabilities and 
has demonstrated its intent to use them to threaten the U.S. 
homeland. Iran continues to work on a space launch vehicle, 
reducing the timeline to development of intercontinental-range 
ballistic missiles.
    Although our focus is on great power competition and rogue 
states, we must continue to address the threat posed by violent 
extremist organizations. ISIS [Islamic State of Iraq and Syria] 
and others continue to strive for opportunities to strike the 
U.S. homeland. The defense of the homeland is not restricted to 
adversaries abroad. In providing defense support to civil 
authorities, my office coordinates the Department's role for 
disaster relief and border security support to the Department 
of Homeland Security.
    To meet this range of challenges, the administration 
released its National Security Strategy. This informed the 
National Defense Strategy, which in turn helped shape the 
National Military Strategy. A common thread throughout all 
these documents is the need to strengthen homeland defense by 
enhancing our deterrence and assurance posture, improving our 
ability to respond if deterrence fails, and strengthening our 
negotiating position against adversaries.
    To that end, every element of my team is focused on 
strengthening U.S. homeland defense. I would like to highlight 
outer space. Space is a key domain for our national and 
homeland defense; however, the space domain is changing, and we 
must address growing foreign counter-space threats.
    Thus, the Department provided Congress a legislative 
proposal for the establishment of the U.S. Space Force as a new 
branch of our Armed Forces. The Space Force will catalyze the 
Department's transformation of space as a warfighting domain to 
ensure we are postured to deter aggression and, if necessary, 
are prepared to defend our vital interests in space.
    Cyber policy's development of the Defense Cyber Strategy 
and first ever Cyber Posture Review has put the Department of 
Defense [DOD] on a path to fight and win against a capable 
adversary, enhance the effectiveness of the joint force, defend 
critical infrastructure, secure DOD information anywhere, and 
prioritize cyber cooperation with partners and allies. These 
objectives, along with our intent to defend forward, puts the 
United States in a far better position to protect the homeland 
and counter adversary aggression.
    Additionally, the Department is enhancing its missile 
defenses for the homeland and improving its ability to counter 
unmanned aircraft systems to further deny potential adversaries 
any potential advantage of using these capabilities against the 
homeland. Support to the homeland is not limited to countering 
foreign adversaries. We must also be prepared to support civil 
authorities.
    DOD actively supports the DHS [Department of Homeland 
Security] mission on the border because border security is a 
core element of national security. The immigration crisis on 
the southwest border poses significant national security and 
humanitarian challenges for the Nation and threatens to 
overwhelm the Department of Homeland Security.
    In the last 6 months, over 430,000 undocumented aliens have 
been apprehended on the southwest border, which already 
surpasses the total number of aliens apprehended in the entire 
fiscal year of 2018. Last month alone, over 92,000 undocumented 
aliens were apprehended on the border.
    DHS will continue to need DOD support into the foreseeable 
future until they have the necessary resources and tools to 
properly exercise their responsibilities. Each of these 
missions have greatly contributed to homeland defense and are 
pivotal to enhancing U.S. deterrence and assurance posture, 
improving our ability to respond should deterrence fail, and 
strengthening our ability to deter or defeat potential 
adversaries that threaten our way of life.
    Thank you again, and I look forward to your questions.
    [The joint prepared statement of Secretary Rapuano and Ms. 
Wheelbarger can be found in the Appendix on page 55.]
    The Chairman. Thank you.
    Ms. Wheelbarger.

STATEMENT OF KATHRYN WHEELBARGER, ACTING ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Ms. Wheelbarger. Chairman Smith, Ranking Member Thornberry, 
members of the committee, thank you for the opportunity to 
testify this morning. We enjoy enormous potential in our 
hemisphere, given the significant cooperation we receive from 
our partners and the democratic values we share with most 
nations in the region. Our vision is for a hemisphere that is 
collaborative, prosperous, and secure.
    But we face significant challenges as well, and Venezuela 
is the foremost example. Yet we have unprecedented regional 
unity at this historical moment, and the United States and our 
international partners continue to harness diplomatic 
information and economic means to encourage a peaceful 
transition of power.
    For the Department of Defense, we have responded to Interim 
President Guaido's call for humanitarian aid by assisting USAID 
[United States Agency for International Development] in those 
efforts to pre-position aid in Colombia. We face other 
challenges in the region as well, including autocratic regimes 
in Cuba and Nicaragua, terrorist and criminal organizations, 
trafficking, natural disasters, and external actors seeking 
undue influence over countries' decisions.
    For the Department, our partnerships are paramount. We 
deepen our relationships to address shared challenges and focus 
on interoperability, intelligence sharing, science and 
technology cooperation, advancing cyber defenses, and expanding 
exercises.
    We counter illicit trafficking by supporting law 
enforcement agencies and emphasizing human rights training. We 
prioritize regional cooperation in humanitarian assistance and 
disaster relief, and we emphasize defense institution building, 
because strong institutions and anti-corruption measures 
encourage efficiency and support legitimate government.
    And as we see in Venezuela, the Western Hemisphere is a 
region of great power competition. We counter Chinese and 
Russian influence by gaining the trust of our partners to 
achieve objectives together. Unlike relationships with Russia 
and China, our cooperation is built on respect, collaboration, 
and a desire to bolster prosperity and security for all.
    With that, I will simply conclude by saying the Department 
takes a global view of the challenges we face and remains 
committed to the region. Thank you for your time.
    The Chairman. Thank you very much. And let me just say, you 
told me beforehand that your statement would be 2 minutes and 
it was exactly 2 minutes. That is incredibly impressive in this 
line of work, so I appreciate that.
    General O'Shaughnessy.

 STATEMENT OF GEN TERRENCE J. O'SHAUGHNESSY, USAF, COMMANDER, 
                     U.S. NORTHERN COMMAND

    General O'Shaughnessy. Chairman Smith and Ranking Member 
Thornberry and distinguished members of the committee, I am 
truly honored to be here today as the commander of the United 
States Northern Command [NORTHCOM] and the U.S.-Canadian bi-
national command, North American Aerospace Defense Command 
[NORAD].
    I am also proud to testify this morning alongside my good 
friend, Craig Faller, and Craig and the USSOUTHCOM [Southern 
Command] team are vital partners and continue to bring our 
commands closer together to better defend our Nation.
    And I am also proud to appear with our great OSD [Office of 
the Secretary of Defense] partners, Assistant Secretaries 
Rapuano and Wheelbarger.
    USNORTHCOM and NORAD are two complementary but distinct 
commands driven by a single, unyielding priority: defending the 
homeland from attack. In this era of rapidly evolving 
technology and renewed great power competition, the need for 
energized and active defense of the homeland cannot be 
overstated.
    Revisionist powers of Russia and China have given every 
indication that their security strategies are based on holding 
the United States at risk with both conventional and nuclear 
weapons, and they have signaled that we must anticipate attacks 
against our civilian and defense infrastructure in the event of 
a conflict.
    Russia has modernized its aviation and submarine fleets and 
fielded long-range cruise missiles designed to evade radar 
detection. Russia and China continue their efforts to penetrate 
our networks while developing and testing hypersonic glide 
vehicles, and both have also established a noticeably stronger 
foothold in the Arctic along the northern approaches to the 
United States and Canada.
    As a result, the strategic value of the Arctic as our first 
line of defense has re-emerged, and USNORTHCOM and NORAD are 
taking active measures to ensure our ability to detect, track, 
and defeat potential threats in that region. Our adversaries 
have engaged in deliberate, focused efforts over a number of 
years to exploit our perceived weaknesses. As a result, it is 
clear that our homeland is not a sanctuary.
    Our mission to deter our adversaries is dependent on our 
ability to detect and defeat potential threats to our homeland, 
and I am grateful to the committee for your strong support of 
USNORTHCOM and NORAD. Along the lines of the efforts, for 
example, fielding AESA [active electronically scanned array] 
radars for our Aerospace Control Alert fighters and improving 
the capability and capacity of our missile defense sensors and 
interceptors clearly demonstrates our shared sense of urgency.
    In that same spirit, we must take prudent steps now to 
ensure our next-generation defensive capabilities, to include a 
space-based sensing layer for missile defense, are not too late 
to need. We must develop an integrated family of systems, 
including undersea, terrestrial, airborne, and space-based 
sensors, with a sense of urgency.
    Given the fact that our adversaries are already developing 
and testing these weapons, time is of the utmost importance. 
And while the challenges facing us are significant, I have 
great faith that through collaboration with industry in 
harnessing the power of innovation in the United States of 
America, we will restore our competitive advantage and continue 
to outpace any adversary that might threaten our homeland.
    And I sincerely appreciate the committee's work to provide 
much-needed predictability and stability with an on-time budget 
in fiscal year 2019. And I am also grateful for the committee's 
ongoing efforts to ensure that we avoid the devastating, deep-
cutting impacts that a return to sequestration would bring to 
the Department of Defense.
    USNORTHCOM and NORAD work every day with our partners to 
keep our citizens safe while confronting challenges emanating 
from multiple approaches and in all domains. I especially want 
to take this opportunity to express my gratitude to the amazing 
men and women in the National Guard, who are great partners and 
critical to our ability to perform our missions.
    And whether intercepting Russian bombers off the coast of 
Alaska or providing much-needed support along our Federal law 
enforcement partners along our southern border, the airmen, 
soldiers, sailors, Marines, coastguardsmen, and civilians of 
USNORTHCOM and NORAD are deeply committed to defending our 
Nation and I am honored to represent them today. And we have 
the watch.
    Thank you and I look forward to your questions.
    [The prepared statement of General O'Shaughnessy can be 
found in the Appendix on page 72.]
    The Chairman. Thank you.
    Admiral Faller.

STATEMENT OF ADM CRAIG S. FALLER, USN, COMMANDER, U.S. SOUTHERN 
                            COMMAND

    Admiral Faller. Good morning, Chairman Smith, Ranking 
Member Thornberry. Thank you for the opportunity to testify 
before you today with my shipmates, General O'Shaughnessy, 
Assistant Secretary of Defense Rapuano, and Acting Assistant 
Secretary of Defense Wheelbarger. Also, thanks to this 
committee for the steadfast support you provide our men and 
women every day.
    Western Hemisphere is our shared home, our neighborhood. We 
are connected to the nations of Latin America and the Caribbean 
by sheer democratic traditions, culture, and geography. From my 
headquarters in Doral, Florida, it takes me longer to travel to 
DC than it does to many countries in my area of responsibility.
    We are connected to our neighbors in every domain--sea, 
air, land, space, and cyber. And, most importantly, shared 
values.
    Only by working together can we meet current and future 
global challenges. Ultimately, what we want is enemies to fear 
us, friends to partner with us, and the Western Hemisphere to 
shine as a beacon of peace, democracy, and prosperity.
    To ensure the security of our homeland, SOUTHCOM works 
closely with our interagency teammates from the Department of 
State, USAID, Department of Homeland Security, and the 
Department of Justice, to name just a few. This teamwork, 
especially with Northern Command and the U.S. Coast Guard, is 
critical to mission accomplishment.
    Over the past 5 months, I have travelled throughout Central 
America, South America, and the Caribbean to get a firsthand 
view of the opportunities and the challenges that directly 
impact the security of our hemisphere and our homeland. 
Criminal organizations, narcotrafficking, illegal migration, 
violent extremist, corruption all enabled by weak governments 
are principal among these challenges.
    The most disturbing insight, however, that I have garnered 
in my time in command has been the degree to which external 
state actors have been rapidly expanding their presence and 
influence in the Western Hemisphere; across the world to 
include in our neighborhood democratic values are under assault 
by China, Russia, and Iran. So, how do we best counter these 
threats to our neighborhood?
    Security cooperation is our best tool, to continue building 
on the strong partnerships in the region and turn the 
challenges of the hemisphere into opportunities. Our partners 
are doing great things every day. In this hemisphere, in our 
neighborhood, a little goes a long way. We need the right focus 
and consistent military presence. We cannot achieve positive 
results and influence outcomes without being on the playing 
field.
    But every security challenge and threat in our hemisphere 
is compounded by the crisis in Venezuela. Russia provides 
lifelines through loans, technical and military support, and 
rhetoric. China is Venezuela's single largest state creditor, 
saddling the Venezuelan people with more than $50 billion in 
debt and exporting surveillance technology used to monitor and 
repress the Venezuelan people.
    Iran is restoring direct flights from Tehran and 
reinvigorated diplomatic ties. Ever-present Cuba provides 
critical personnel and resources to prop up a corrupt and 
illegitimate dictator. In the face of this malign influence, 
the rest of the world unites in support of Venezuela's 
legitimate leader, Interim President Guaido.
    A transition to legitimate democracy is underway and I have 
a message for the professionals in the Venezuelan military and 
security forces. The brutal dictatorship of Maduro has led to 
this man-made crisis. Cuba and Russia have invaded your country 
and disgraced your sovereignty.
    You have a chance to do the right thing and alleviate the 
suffering of your people and your families, those you have 
sworn an oath to protect. When a legitimate democracy has been 
restored, we look forward to having you return to the 
profession of arms, including attendance in United States 
military training and education.
    Mr. Chairman, Ranking Member Thornberry, thank you again 
for the opportunity to testify. The SOUTHCOM team, our 
civilians, and military members, and our families appreciate 
the support Congress has provided. We will continue to honor 
your trust and our fellow citizens have placed in us.
    I look forward to your questions.
    Thank you.
    [The prepared statement of Admiral Faller can be found in 
the Appendix on page 97.]
    The Chairman. Thank you, all.
    Admiral, I will start with you, and picking up where you 
left off on Venezuela. What is sort of the military's role in 
what is going on down there because I agree with your statement 
that Maduro is not a legitimate president. We need to have a 
transition to a, you know, true democracy and legitimate leader 
in Venezuela.
    I am concerned, though, that we would think that there is 
some sort of role of the U.S. military, given our history down 
there and given what we have learned about using the military 
to sort of change governments. What role do you see for our 
military in what is going on in Venezuela and where do you see 
the limits of that role?
    Admiral Faller. We have been focused on working with our 
regional partners, intelligence sharing, information sharing, 
gathering and generate a shared appreciation for the 
complexities associated with a problem: the impacts both in 
Venezuela; the horrific starvation, over 90 percent of 
population starving; and the impacts of security with partners, 
and we are looking a way to apply our security assistance in a 
mutually beneficial way, that has been the primary line of 
effort.
    Secondary line of effort has been focused on planning for 
noncombatant evacuation and protection of American citizens and 
lives within Venezuela. Prudent planning, as you would expect, 
Chairman, for a combatant commander. The look in support of 
USAID was mentioned by our colleagues here. USAID, we have 
supported the delivery of humanitarian aid, and we are working 
and planning with USAID.
    And then, more broadly, we are looking at a day after when 
we have a democratic Venezuela. How do we work with their 
militaries and security cooperation that is representative of a 
normal mil-to-mil relationship? Those have been of our 
priorities, sir.
    The Chairman. But you do not see a role for the U.S. 
military in actually overthrowing the Maduro government, 
correct?
    Admiral Faller. Our leadership has been clear. It should be 
primarily a democratic transition. We are in total support of 
the diplomacy and we stand ready to support that effort, sir.
    The Chairman. And one final question, sir, on the 
sanctions. Obviously, Venezuela has many challenges. You have 
outlined some of them. What role do you see U.S. sanctions on 
Venezuela having played in the economic difficulties that are 
there? And how do you balance sort of the pressure we want to 
put on the regime to change with the potential impact of those 
sanctions?
    Admiral Faller. The misery of the people of Venezuela came 
about as a result of the illegitimate dictator's actions and 
inept way with which he has run the country, and China and 
Cuba's complete inclusion in that problem set. The sanctions 
have been a necessary tool to help apply pressure to accelerate 
the diplomatic efforts. The misery began and ends with Maduro.
    The Chairman. And it is worth noting that, you know, much 
like Putin in Russia, huge part of problem is that Maduro and 
his cronies take all the money. They don't care about the 
people whatsoever. They are, you know, running a kleptocracy 
there, and the people are the ones who are paying the price for 
that.
    Couple of quick questions on the border side of it--and I 
will shift over to the--the policy folks. It seems, you know, 
if you go back before the Trump administration started 
implementing its immigration policies, we are in much worse 
shape now than we were when that started. Do you see any 
connection between a variety of those policies and what is 
happening on the border? And if so, have you started to talk 
about how you might do things differently? And I guess that is 
for Mr. Rapuano.
    Secretary Rapuano. So we do not deeply assess the causation 
in terms of the desire of individuals to immigrate to the 
United States and how that contributes to illegal immigration. 
Our support is to Department of Homeland Security, which is 
responsible for that mission, and we are providing support in 
that role, the support that is appropriate for the Department 
of Defense to provide.
    The Chairman. But surely, you are around for the 
conversations about what policy might make sense. So I am just 
curious, you know, as someone who is involved in this and the 
Department of Defense is now deeply into what is going on in 
the border because Homeland Security has asked for a lot of 
money and a lot of human resources. What is your thought about 
how we can adjust that policy to improve the situation?
    Secretary Rapuano. Well, I can certainly say the 
administration has been very focused on looking at the 
diplomatic, the legal, the engagement with nations that are the 
primary sources of illegal immigration to the United States.
    The Chairman. Yes. The only thing I have heard is the 
administration talking about how they want to cut off money 
from those places, which doesn't strike me as a particularly 
productive approach. So, if you could drill down a little bit, 
what is the administration doing to try to look at--in 
specifically Guatemala, Honduras, and El Salvador--to say how 
can we help them towards a more stable, less desperate 
situation?
    Secretary Rapuano. Well I really cannot speak for the 
administration's efforts associated with engaging with the 
countries south of the border. That is outside of my portfolio 
and my writ.
    The Chairman. Anybody else want to take a stab at it?
    Ms. Wheelbarger. I will say it from the perspective of the 
regional policy shop in OSD, we continue to focus on security 
cooperation efforts with Central American countries. The 
President has made a decision with respect to looking at our 
cooperation in the region.
    But from the DOD perspective, DOD activities are going to 
continue forward because the mil-to-mil relationships, we 
find--and I will defer to Admiral Faller as well--are a 
significant source of security and stability in those countries 
but in the region at large----
    The Chairman. And I guess that is the point I want to make. 
There are other tools in our toolbox other than the military. 
In fact, we are already confronting this with the request for 
more mil-to-mil cooperation around Venezuela, whereas the 
cutoff on State Department and the USAID remains in place.
    I just, frankly, do not get this administration's complete 
and total blind spot towards the notion that international 
affairs involve more than just the military. That USAID and 
diplomatic--you know, cutting them off and focusing only on the 
military, saying to Central America we are not going to give 
you any more money, just encourages more people to flow 
forward.
    That is more a message for you to deliver back to the 
people at the White House than anything you need to answer, but 
it is contributing to the problem because, the irony for me is, 
when the President started talking about there being an 
emergency at the border, there wasn't.
    Now there is, and I think the two are connected, so I hope 
we will figure out those policies because nobody on this 
committee wants the Department of Defense to have to have their 
resources drained out to go to Department of Homeland Security 
missions. And DOD has enough to do. So we are in serious 
trouble down there, and we need to figure out how to better 
confront it.
    I want to give General O'Shaughnessy and Admiral Faller a 
chance if you have any response, any ideas for how we can 
improve that situation. Don't go on for too long because I am 
over my time and I want to turn it over to somebody else. But 
just curious if you have any quick thoughts on that.
    General O'Shaughnessy. Chairman, I would just say, from our 
vantage point, we have a role to support our CBP [U.S. Customs 
and Border Protection] partners. And from the NORTHCOM 
perspective, we are executing that role in the mission that we 
have been given to support CBP.
    The Chairman. Okay.
    Admiral Faller. I will be in Honduras Monday next week as 
co-host of a Central America security conference with all the 
Central American countries, including some of the--the 
neighbors. This will be a topic of what we can do working 
mutually together to better the security of both our countries 
and the United States homeland.
    The Chairman. Okay. Again, I hope we can include more folks 
than just on the security side. There is a very complex 
humanitarian problem down there. I think there are a lot of 
tools in our toolbox. We have a lot of, you know, allies and 
neighbors throughout the region who could help. We need to 
start employing all of those tools because it is a serious 
situation, as we all know.
    Mr. Thornberry.
    Mr. Thornberry. Admiral, I appreciate the statement you 
made, particularly at the end, making an appeal to the 
Venezuelan military. It seems to me that a relatively small 
number of people have the future of their country in their 
hands.
    One of these days, the Venezuelan people are going to have 
a say. And the question is, how long the suffering has got to 
go on. And there are folks now who are making decisions for 
which they may be held accountable someday. And so, I 
appreciate that appeal.
    General, I wanted to ask you briefly, you mentioned space-
based sensors. Can you just, again, briefly describe why it is 
important that we have space-based sensors to defend the 
homeland?
    General O'Shaughnessy. Thank you for that opportunity. 
Clearly, as we look at the advanced threats that we are facing, 
both from Russia and China, they are of a changing nature. And 
our current sensors that we have are just not situated to be 
able to be effective against that. Part of it is just a pure--
the track that a weapon would take is not conducive to a 
terrestrial-based sensing grid.
    And therefore, if we look at the space-based sensors, it 
gives you the opportunity, for example, a hypersonic track, 
that you could maintain the track from birth to death, right? 
You could see it from the time it launched to the time that we 
are able to take that out with an interceptor or directed 
energy or some sort of ability to defend against it.
    Right now, if we just put more money into just what we are 
doing today, with the terrestrial-based sensors, we will never 
get to the point where we can actively defend against them. So, 
the space-based sensing layer, to me, is absolutely critical if 
we are going to be able to defend against these advanced 
threats.
    Mr. Thornberry. I appreciate it. I suspect there is more 
detail we can get into in a classified session, but I think 
that is helpful.
    Mr. Rapuano, chairman said this--I think we all agree--we 
face an unprecedented situation at the border. The Border 
Patrol is completely overwhelmed. Reports this week are that 
military folks are going to be asked to do more tasks at the 
border than they have been doing before.
    My question to you is, why can we not use contractors for 
these support activities that we are now asking the military to 
do? Any time any of us visit Afghanistan, other places around 
the world, a lot of the people doing the cooking, the cleaning, 
the driving, monitoring sensors are often contractors. Why 
can't we use contractors?
    Secretary Rapuano. Sir, the Department of Homeland Security 
and CBP have been using contractors. But what they describe to 
us is there is a practical limit in terms of availability of 
contractors in the areas where they seek to have the work done 
and the timelines associated with getting those contractors on-
task.
    In addition to that, there are certain functions that are 
DOD military capabilities. Sensors, the barrier construction in 
terms of the concertina wire, for which we do have ready 
capabilities. In the other areas--and you described some of 
them, in terms of the logistics management for migrant 
processing--that are not necessarily a lead military skill, but 
it certainly is a capability that we can provide in exigent 
circumstances, such as being experienced today.
    Mr. Thornberry. Well, I hope that as DOD considers requests 
from the Department of Homeland Security that you look at, 
independently, the availability of contractors to perform some 
of these functions, especially as the task-ask of our military 
expand.
    I know we can do it. The question is, are U.S. military 
people the best entity to be deploying wire? As I say, 
contractors run sensors all over the world and the other 
logistical support. I think that is maybe a better way forward 
than to continue to expand the job of our military. I yield 
back.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
our witnesses for your testimony today and your service to the 
country. Just to follow up on the chairman's discussion on 
Venezuela, just so we are clear. First of all, I agree with 
where the discussion was going, that we need to apply maximum 
diplomatic pressure and resolve the situation within Venezuela 
diplomatically.
    But just so we don't leave anything hanging out there, we 
are not missing something, have any of you in any way, shape, 
or form been given instruction by your leadership to prepare 
for any type military conflict? I just want to make sure that 
we are clear on that. So, pre-positioning troops or any kind of 
forces? Can we run down the line?
    Ms. Wheelbarger. We, of course, always review available 
options and plan for contingencies. But in this case, we have 
not been given the sort of orders that you are discussing, no.
    Mr. Langevin. General, Admiral, or Mr. Secretary?
    Admiral Faller. The mission sets that I discussed with 
respect to the chairman's question, our principal focus, really 
focusing on building those partnerships, leveraging our 
partners, making sure that whatever happens in the future--and 
we know we won't be able to predict it, that we are ready to 
approach this together as a united region and working with our 
military. It has been our principal line of focus.
    Mr. Langevin. General.
    General O'Shaughnessy. Sir, we are in support of Admiral 
Faller in the SOUTHCOM aspect, but nothing directly. Just 
helping Admiral Faller.
    Mr. Langevin. Okay. Mr. Secretary, anything you want to 
add?
    Secretary Rapuano. No. Nothing to add.
    Mr. Langevin. Okay. Thanks. Okay. Thank you. Just wanted to 
get that on the record.
    General O'Shaughnessy, if I could? I am pleased the DHS has 
assigned a liaison officer to NORTHCOM headquarters, and I hope 
that the interagency partnership will enhance the resilience of 
U.S. critical infrastructure, particularly in a time of crisis.
    What I wanted to ask is how are you and your counterparts 
institutionalizing the relationship, though, so it is not just 
personality-driven or public-attention-driven, and that you are 
exercising the various scenarios under which CISA 
[Cybersecurity and Infrastructure Security Agency] may call on 
NORTHCOM for support?
    General O'Shaughnessy. Well, thank you for the opportunity 
to highlight the close coordination and collaboration we have 
with the Department of Homeland Security and specifically with 
respect to CISA.
    As you mentioned, literally within the first week of it 
standing up, we actually had exchanged liaisons back and forth 
that are full-time within each other's headquarters. And these 
are well-seasoned professionals who truly understand the nature 
of the threats that we face.
    Part of the way, as we go forward, is we are inserting 
ourselves and have inserted ourselves inside the battle rhythm 
of each other's headquarters. And so, every day we have 
integration and coordination in the various issues that we are 
working.
    Under Secretary Nielsen--and we will continue on, no doubt, 
with Acting Secretary McAleenan. I actually met with them on 
a--on a biweekly basis where we talked about not only support 
to the border but things like we are doing to support the 
critical infrastructure.
    And to the point of, how do we institutionalize it? We are 
bringing it into our exercises. We are bringing into both our 
annual exercises as well as the longer-term exercises to make 
sure that we do it all the way from a tabletop exercise to a 
full interagency exercise. That we do this together because you 
simply can't separate homeland defense and homeland security. 
They are intertwined in ways that we need to collaborate 
together. Not on a one-off event, not when a crisis happens, 
but every day.
    Mr. Langevin. Excellent. Thank you. The exercising part of 
that is essential, I agree especially. How are you working with 
U.S. CYBERCOM [Cyber Command] also to ensure that it is 
prepared to support you if you are called upon in a DSCA 
[Defense Support of Civil Authorities] role and I am thinking 
particularly of coordination with the national mission teams?
    General O'Shaughnessy. Yes. Thank you for that. We have a 
kind of twofold interaction with our Cyber Command in this 
area. One is for our own systems, right? We have our own 
systems designed to defend the United States and Canada that we 
want to make sure are able to survive any attacks, any attempts 
to take them down not only in crisis but day to day.
    And so, we have a day-to-day engagement with Cyber Command 
and their cyber teams that are actually in support of us on a 
regular basis. We have two actively engaged as we speak right 
now.
    In addition to that, though, as we look at the broader 
protection of the Nation, we also, to your point, use the DSCA 
model of how we can work with Cyber Command to present that 
force to both our state--for example, within the elections was 
an example, in 2018, how we present the force throughout the 
Nation, both on a critical infrastructure, things like 
election.
    And that DSCA model with us is essentially the DOD 
synchronizer, has proven to be quite effective in hurricanes, 
wildfires, and so we are approaching that with the same model 
as we look at the cyber. And we have had great success already 
and look forward to maturing that as we go forward.
    Mr. Langevin. Thank you very much.
    Secretary Rapuano. I would just add to that that, at the 
departmental level, the Department of Defense and the 
Department of Homeland Security now have a memorandum of 
agreement signed last year by Secretary Madison, Secretary 
Nielsen in which we are working with them across the board, 
starting with defense critical infrastructure, as well as civil 
infrastructure, how are we prioritizing between the Department 
of Defense and DHS and the sector lead agencies. And then how 
are we looking at where and how we support them best----
    The Chairman. I am sorry. The gentleman's time has expired. 
And I apologize. Should have warned the witnesses. We try to 
keep it to 5 minutes. I will not cut you off in mid-sentence or 
anything. But once we hit 5 minutes, we do try to move on to 
other folks, even if you are in mid-question. At that point, we 
take it for the record. If you have an answer you want to 
submit to the member, you can do that then.
    Mr. Wilson.
    Mr. Wilson. And thank you, Mr. Chairman. And thank each of 
you for being here and your service to our country.
    Admiral Faller, I am grateful for the relationship of the 
U.S. Southern Command maintains with the Republic of Colombia 
as part of the National Guard State Sponsorship Program.
    Since 2012, South Carolina and Colombia have partnered to 
enhance military cooperation with the rotary wing and air 
defense capabilities. As Colombia continues to expand its NATO 
[North Atlantic Treaty Organization] Global Partner, how do you 
judge the strategies for Plan Colombia? Specifically, what are 
the investments DOD is making to combat terrorist activities 
and drug trafficking to continue the successes?
    Admiral Faller. We will start with the South Carolina 
Guard, a fantastic partner. In fact, they are down there this 
week working with the Colombians. They will be down later this 
summer for an air defense exercise with some of high-end 
capability exercising with Colombians. And we are very 
appreciative of the National Guard, what they do across the 
range of security cooperation. It is absolutely a wonderful 
partnership.
    Colombia, their military and security forces are making a 
difference. And they are taking the attack to the 
narcotraffickers. They are taking it to the ELN [National 
Liberation Army], the FARC [Revolutionary Armed Forces of 
Colombia] dissidents. And the results that we will see and the 
eradication plateau in coca production, high interdiction 
rates, these are going to have an impact on both the internal 
security of Colombia and the United States security.
    A very capable partner, I have the utmost trust for the 
Colombian armed forces and what they do as professionals and 
what they do in terms of their warfighting ability.
    Mr. Wilson. Thank you very much.
    And Ms. Wheelbarger, Russia and China are expanding their 
presence in Latin America. They are using economic and military 
influence to strategically compete against the U.S. in this 
vital region and systematically engage with the autocratic 
regimes.
    Admiral Faller has already cited Russia and Cuba are 
increasing military intelligence activities in Venezuela. What 
types of equipment, aircraft, or capabilities are you most 
concerned about?
    Ms. Wheelbarger. I will defer to Admiral Faller for the 
specific technical concerns. But in terms of Russia and Chinese 
influence who are at large in the region, we are very focused 
on countering that influence with our own productive activities 
with building partner capacity.
    As I discussed in the opening, our National Defense 
Strategy encourages us as a department to look at these as 
global threats. And that includes countering the influence in 
our hemisphere. Therefore, we are consistently and continuously 
looking for opportunities to build our partners and build new 
relationships, and we have significant opportunity right now to 
do so.
    With respect to their specific activity in Venezuela, as it 
was cited at the beginning this morning with respect to 
Secretary Pompeo's statements, it is not just technical 
concerns that we have, but it is just the overall influence 
that they can have and bear on the decision making of these 
countries. And that is why we, as an international community, 
call on Russia and China, in particular, to cease their support 
to the Maduro regime.
    Mr. Wilson. Thank you. General O'Shaughnessy, the North 
American Aerospace Command is improving the defense coverage 
for the National Capital Region. The South Carolina National 
Guard currently has personnel in the region to support this 
mission. What is your timeline of the three-phase plan to 
expand the National Capital Region architecture to protect the 
rest of the country? And are you working with our neighbor, 
Canada?
    General O'Shaughnessy. Yes. Thank you for the question. And 
as you highlight, the Guard participation in all the defense 
within NORAD and NORTHCOM is significant. An example you used, 
the National Capital Region, as we sit right here today we have 
guardsmen protecting us literally as we sit here today. And so, 
my hat is off to the great support that we get from them.
    Now, with respect to, specifically, the Homeland Defense 
design, Phase I and Phase II are actually funded, and Phase I 
in place, Phase II ongoing now. As we look to Phase III, it 
becomes significantly more complicated as the threat has 
continued to develop as well.
    And so, we are continuing to refine what that Homeland 
Defense design should look like going into the future with the 
advanced threats, hypersonics, et cetera, cruise missiles that 
we know we have to defend against. And we are using the basis 
from the Homeland Defense Phase I and II as the starting point, 
but in a much more complicated and complex manner to defend 
both the United States and Canada.
    Mr. Wilson. And the level of synchronization with Canada?
    General O'Shaughnessy. Extreme. NORAD's 60 years of history 
of the great relationship with NORAD and the modernization 
within NORAD, we are trying to look bi-nationally. I can submit 
for the record some studies that we are doing bi-nationally 
with Canada, in the interest of time, but we are looking at 
this together with Canada.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you.
    General, the Coast Guard came out with their Arctic 
strategy a few weeks ago. It was called Protecting Sovereignty. 
The administration, under General Mattis at the time, said that 
you had an updated military strategy in June. Will we have that 
by June?
    General O'Shaughnessy. I will defer to OSD on that. We have 
been working with the OSD office that is working that strategy.
    Mr. Larsen. All right. OSD, is it going to be done by June?
    Ms. Wheelbarger. I currently understand that it will be. I 
was seeing sort of final deliberations over the last couple of 
weeks. So we will get you an update if we think it is going to 
not be delayed for any reason.
    Mr. Larsen. Please do that. Thank you.
    Back to General, then. Could you talk a little bit--in your 
testimony on pages 11 through 12-ish or so, you are the duty 
advocate for Arctic capabilities and combatant commander 
response for defending approach to the homeland. Rather than 
getting into what Russia and China are doing, could you just 
review your testimony a little bit for us on what we are doing?
    The Arctic has been, obviously, of interest for us for a 
long time. What are doing that isn't in response to Russia and 
China? What are we doing because we ought to be doing it for 
the--for our own reasons?
    General O'Shaughnessy. Right. And really, as we look at the 
Arctic, it is a very difficult operating environment. And so we 
feel that we need the ability to operate in that environment. 
And so, for example, the working we are doing in the JPARC 
[Joint Pacific Alaska Range Complex] range in Alaska gives us 
the ability to train our force in ways that we haven't been 
getting after for the last several decades.
    If you look at the work that we are doing, the U.S. Navy, 
for example, sail the Harry S. Truman in the high north that we 
hadn't in literally decades. And so, we are really trying to--
from exposing our team--our airmen, soldiers, sailors, 
Marines--to that environment and making sure that we are 
prepared to operate.
    Just last week, I personally went out to Thule Air Base in 
Greenland, I went up to Inuvik and higher areas of Canada and I 
will tell you firsthand, those conditions that we are going to 
ask our force to operate in are extreme and you can't go there 
without the adequate preparation and training.
    The second thing we are looking on is actually, what do we 
need to be able to operate there? So we look at domain 
awareness, we look at our ability to communicate. Many of the 
traditional means of communication simply don't work in the 
Arctic. We are looking at our ability to sustain those 
operations there so that once we have the training, we will 
have the ability to actually have a force with an 
infrastructure that will actually support them in a sustained 
way.
    The way we are looking to advocate for that is we are 
working closely with EUCOM [U.S. European Command] and PACOM 
[U.S. Indo-Pacific Command] so that we can be the lead, but it 
is not something that is just done alone at NORTHCOM and NORAD. 
It is done in coordination with our sister combatant commands, 
but it is also done, for example, with the Coast Guard.
    And as they are looking to get the heavy icebreaker, 
critically important for us. And so, it is that coordination 
and doing these things together. We are running symposiums. We 
are trying to be a little bit of the vocal advocate for it, not 
only within DOD but within the interagency as well. And we will 
continue to take those measures.
    Mr. Larsen. How are you using the CONUS [contiguous United 
States] bases as platforms for deployment?
    General O'Shaughnessy. Well, I think as we look at some of 
the places here within the CONUS, we have, for example, the Air 
National Guard, the 109th, has the LC-130s that have capability 
that is absolutely critical for us. And so, being able to use 
that--in fact, they were up at Greenland last week as well. 
They are up there for about a 4-month tour. They will also go 
down to Antarctica. But making sure we use that capability and 
that expertise.
    Now, as far as other bases within the U.S. in the CONUS, we 
try to take advantage of some of the experiences that we have, 
that we can leverage forward. What we see right now is that--
look at, for example, some of the operations that we see are 
just a lack of experience of being in those environments.
    Mr. Larsen. Yes. Thanks.
    So, Secretary Wheelbarger, we will expect then--maybe just 
by the end of the week get us an update on a more precise 
timeline?
    Ms. Wheelbarger. Yes. We will get you an update by the end 
of the week.
    Mr. Larsen. That would be great. Thank you.
    And I will yield back to myself and recognize Mrs. Hartzler 
for 5 minutes.
    Mrs. Hartzler. Well, thank you. Thank you, Mr. Chairman.
    General O'Shaughnessy, the F-15C fleet based within the 
U.S. is tasked with, as you know, supporting our top mission of 
defending the homeland. And the Air Force plans to refresh the 
F-15C fleet with the F-15EX and has requested funding for eight 
aircraft in the fiscal year 2020 budget. So, how would bringing 
advanced F-15s into these units impact NORTHCOM in terms of the 
capacity and capabilities available for the homeland defense?
    General O'Shaughnessy. Ma'am, I think you know, the Air 
Force has very publicly talked about they need 72 aircraft a 
year in their procurement in order to sustain and grow the Air 
Force to the size that it needs to be. We are one of those 
requirements, right? We are one of the forcing agents for the 
U.S. Air Force to respond to that demand signal.
    And so, we are very supportive of the work that they are 
doing to maintain a capability and capacity to support all of 
the requirements. We also understand that they are committed to 
fifth-gen and that hasn't changed as we do go forward. But as 
we look at the readiness capability of a sustained fourth-gen 
fleet, it needs to be refreshed and, as such, we are looking 
forward to continuing to work with the Air Force, make sure 
they provide us with the capability and capacity we need, and 
we support the Air Force's initiatives going forward.
    Mrs. Hartzler. So, you support their plan to buy more F-
15Es?
    General O'Shaughnessy. We are fairly agnostic to the 
platform in the sense of a capacity that we need them to have, 
and so I do support General Goldfein, Secretary Wilson in the 
approach that they have taken to have both readiness and 
capability and capacity available for us as a combatant 
commander.
    Mrs. Hartzler. So the Air Force has testified that 
converting the F-15C squadrons to the F-15EX will better 
support the needs of the Air Force and combatant commands by 
minimizing the downtime of mission conversion. Compared to the 
years it would take to convert to an entirely new platform, the 
Air Force believes units transitioning between F-15 variants 
would take just months. Looking at the forces available to 
NORTHCOM today, how important is that mission conversion 
timeline to meeting your requirements?
    General O'Shaughnessy. Well, ma'am, the service will be 
ultimately responsible for that but what we can't afford is a 
gap, right? We cannot have a gap in the capability and the 
capacity. As we sit here today, you know, we have five 
different F-15 units that support us within NORAD. It is an 
important platform for us. And in the end, we can't afford to 
have any detriment in the capacity or capability that we have 
supporting NORAD.
    Mrs. Hartzler. Okay. In your written testimony, you 
discussed the challenges of unmanned aerial systems in the U.S. 
airspace and the importance of the authorities provided to DOJ 
[Department of Justice] and DHS in the recent FAA [Federal 
Aviation Administration] Reauthorization Act. DOD has also 
received counter UAS [unmanned aircraft system] authorities in 
both the fiscal year 2017 and fiscal year 2018 NDAAs [National 
Defense Authorization Acts]. How is NORTHCOM using the granted 
DOD authorities and have any gaps been identified from a COCOM 
[combatant command] perspective?
    General O'Shaughnessy. Ma'am, I would first like to start 
by thanking you and your team for the great support that we 
have had with respect to these authorities over the last 
several years. And not only for the DOD because it is an 
important aspect for us, for our authorities. But, as you 
mentioned, the interagency is equally as important.
    And so as we work closely with Department of Homeland 
Security and as you worked to help get them the similar 
authorities that we have within DOD, that has been extremely 
helpful. The example I use is right here within the National 
Capital Region where we are working closely with many sub 
organizations within DHS, but also DOJ, the Capitol Police, the 
local police, and the individual services, as we work an 
exercise here in about 2 weeks to try to bring all that 
together. And it is very complex.
    And so, it is a question of the authorities we have and 
then the tools and the kit that we have to actually defeat any 
threat that we have with the counter UAS. So the exercises that 
we are doing are driving us to better understand if there are 
additional authorities or requirements that we might have and 
we will stay in close coordination and collaboration with your 
team and this committee as we go forth to speak with more 
authorities that we will be seeking.
    Mrs. Hartzler. Yes. Appreciate your work on that, and look 
forward to continuing to work with you on it because it is such 
a very important mission. And lastly, another question. I am 
proud to, as you know, represent Fort Leonard Wood in my 
district, which contributes vital capabilities to NORTHCOM by 
training service members for specialties such as military 
police and the CBRN [chemical, biological, radiological, and 
nuclear] response.
    In your written testimony, you discussed NORTHCOM's defense 
support of civil authority's mission and provided many examples 
of interagency coordination. Can you talk in more detail about 
coordination and training activities among DOD CBRN specialists 
and civilian CBRN experts aimed at protecting the homeland?
    General O'Shaughnessy. Yes, ma'am. And let me first thank 
you. Actually, Fort Leonard Wood is--is instrumental to our 
ability to have this capability. We have about 18,000 personnel 
at any given time that are committed to the chemical, 
biological, radiological, and nuclear response efforts. We have 
57 CST [civil support team] or teams that are designed within 
the States to be able to respond.
    To a person, they are trained at Fort Leonard Wood. And it 
is also--the training they do is also within the interagency 
and the local law enforcement officials and the first 
responders that they will work with. And so, I know we are 
short on time, but I will just say, absolutely critical and we 
would not be able to do it without the expertise resident there 
and it is not----
    The Chairman. Thank you.
    General O'Shaughnessy [continuing]. Just within DOD but 
within----
    The Chairman. Thank you.
    General O'Shaughnessy [continuing]. The broader response.
    Mrs. Hartzler. Thank you----
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to all 
the witnesses for being here today. Again, looking at the, sort 
of, mission of Southern Command--and I think it has been 
referenced by some prior remarks. Obviously, the migration 
issue, in terms of where there is instability, is certainly the 
issue of the day. The administration's decision to cut aid to 
the Northern Triangle countries, again, I think has just 
totally flabbergasted people in terms of, you know, how that 
possibly helped stabilize that situation.
    Mr. Chairman, I have a statement that was signed by five 
combatant commanders of the U.S. Southern Command--General 
Craddock, General Hill, General McCaffery, Admiral Stavridis, 
General Wilhelm--who all basically make the point that the 
solution, in terms of the drivers that cause people to leave 
their country and move north, that cutting aid to the region 
will only increase the drivers and will be even more costly to 
deal with our border. I would ask that it be admitted to the 
record.
    The Chairman. That is five former combatant commanders.
    Mr. Courtney. Correct.
    The Chairman. But, yes, without objection, so ordered.
    [The statement referred to was not available at the time of 
printing.]
    Mr. Courtney. Thank you. Yes. No slight intended, Admiral. 
And I want to thank you for being here today. It is good to see 
you back on the Hill.
    Again, maybe Ms. Wheelbarger or Mr. Rapuano can respond to 
that question.
    How on earth cutting aid--which doesn't go to the 
governments. They actually go to NGOs [non-governmental 
organizations], faith-based groups, you know, all the folks who 
are trying to help individuals who are definitely in crisis in 
economies and almost failed states in those regions.
    How that is going to help us at the border deal with this 
problem?
    Ms. Wheelbarger. I will just start by saying, as I 
explained before, we are continuing our mil-to-mil and MOD 
[Ministry of Defense] to DOD partnerships in the region as much 
as we can. You know, we will inevitably be impacted somewhat by 
the ending or the pausing of State Department support.
    We agree that it is important to do all we can to bring 
stability and security to the regions, both to the Central 
Region but also around the hemisphere. And that a key part of 
that, again, is an interagency process that uses a whole-of-
government approach. I think our perspective is that we will be 
reviewing what our security cooperation is in light of the 
decision and reviewing foreign assistance writ large in the 
region over the coming weeks and months.
    Mr. Courtney. Well, as those former combatant commanders 
stated pretty powerfully is that military alone cannot 
strengthen the investments for development and the other whole 
of government has to be part of the effort. Otherwise, you 
know, you are just, you know, chasing something that you will 
never catch in terms of trying to deal with this issue.
    Admiral, we talked yesterday about the flow of drugs into 
our country, particularly in New England, which has been hard 
hit by the addiction issue. Maybe you could talk a little bit 
about your efforts with the Coast Guard, in terms of 
interdiction.
    Admiral Faller. The drugs and the deaths as a result of 
drugs in this----
    Mr. Courtney. Right.
    Admiral Faller [continuing]. Country is certainly a 
national security crisis. The flow of those drugs--cocaine 
principally from Colombia, heroin from Mexico, and then 
fentanyl from China and other sources--all mix together in a 
concoction that is killing our citizens.
    The Coast Guard is our number one partner. And our Joint 
Interagency Task Force South in Key West, we have 20 partner 
nations and all elements of the U.S. Government laser-focused 
on this across both the NORTHCOM and the SOUTHCOM boundaries 
because, as you know, sir, the drug traffickers know no seams. 
They exploit them.
    The Coast Guard's presence any given day is six to eight 
cutters, assets beyond that, and our Navy's now stepping up. 
This fall, we will have a littoral combat ship. But keep in 
mind, we are talking about covering an area the size of the 
United States with from 6 to 10 ships. And so the interdiction 
percentage with the current assets we have is about 6 percent 
of the detections.
    So we need more ships, we need more intelligence, 
surveillance, and reconnaissance assets to include maritime 
patrol aircraft. The Navy's contributed two P-8s. The Customs 
and Borders Protection has some P-3s in the hunt. And those are 
our critical needs.
    Mr. Courtney. And you mentioned the littoral combat ship as 
being an additional asset that maybe can be brought to this 
mission. I mean, could you talk quickly about where that 
stands.
    Admiral Faller. We will get our----
    The Chairman. By quickly, he means 5 seconds.
    Admiral Faller. We will get our first one this fall. The 
Navy needs more ships. We welcome those ships in SOUTHCOM.
    The Chairman. Very good.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you all for 
being here.
    General O'Shaughnessy, always good to see you and welcome 
to our community. I would like to ask a question about missile 
defense, and then a more Colorado-based question. But, first of 
all----
    And, Mr. Rapuano, if you want to weigh in on this, also, 
you would be welcome to. Given that the Redesigned Kill Vehicle 
[RKV] schedule continues to slide to the right, do you think it 
makes sense to consider next-generation solutions--and I am 
thinking of the MOKV, the Multiple Object Kill Vehicle--because 
the threat is out there and we don't want to get caught with 
the threats--not being able to address the threats? So, MOKV, 
should we start working on that and accelerate our work on 
that?
    General O'Shaughnessy. Well, thank you, sir. First, I would 
say, with respect to the RKV, I do have a concern, as you would 
expect, from the operational perspective of the delay as it hit 
the critical design review and was not ready to move forward. 
So, we have been working closely with General Greaves, MDA 
[Missile Defense Agency], in fact, immediately after that was 
highlighted.
    I went down to the headquarters personally, met not only 
with General Greaves but the technical experts to better 
understand not just the RKV but the broader system of systems 
and things that we could do. From my perspective, I am very 
concerned about the overall capacity and capability.
    In other words, if we look at North Korea as an example, 
there is a capability that we need to have to be able to 
intercept any missiles they shoot, but there is also a capacity 
that we need to maintain. And so we want to make sure that, 
between the radars, between the kill vehicles, that we maintain 
ahead of that capacity.
    So, without getting into technical discussion, which, of 
course, would have to go classified, I would say it is really a 
bit of both. In other words, I don't know that you can just 
skip the RKV, but certainly the MOKV needs to be continued to 
be pursued because, as you highlighted, it does give you the 
ability to go after multiple objects. And so, I think as we go 
forward, we can have a follow-on discussion in classified, but 
I do believe we need to continue to pursue the RKV but also 
look at the MOKV----
    Mr. Lamborn. Okay.
    General O'Shaughnessy [continuing]. MOKV going forward.
    Mr. Lamborn. Well, thank you, General.
    Mr. Rapuano, would you want to weigh in on that?
    Secretary Rapuano. I think General O'Shaughnessy covered it 
quite well. It is really what the trade space is in terms of 
time as well as capabilities between RKV and MOKV. And those 
are the things that we are looking at because we see 
adversaries continuing to develop their capabilities, but we 
want to make sure that the trade we make is a balanced trade.
    Mr. Lamborn. Okay. Thank you.
    And lastly, General O'Shaughnessy, I want to ask you about 
a Colorado-specific question. As you know, in northwest 
Colorado, we have the HAATS site, or the High-Altitude Army and 
National Guard Aviation Training Site, and that is on public 
land. There has been legislation introduced by some of the 
Colorado delegation to declare large areas of Colorado 
wilderness.
    And I am sure this is unintentional, but it could have the 
effect of shutting down that aviation training site because 
wilderness use is very limited, very stringently controlled. 
So, do you have concerns about this legislation, which is H.R. 
823, and how it might affect the HAATS site and affect 
firefighting as well?
    General O'Shaughnessy. Yes. Thank you, sir. I don't have a 
direct involvement in that as a NORTHCOM or NORAD, but I 
clearly understand the dilemma that this would put us in within 
the services. And so, I would look forward to working with your 
team going forward to see if there is something we can do 
together to address this issue.
    Mr. Lamborn. Okay. We will stay in touch with you on that. 
It is a work in progress. I just wanted to get you to weigh in 
on that because it is a concern in our State.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Admiral Faller, you indicated that one of your 
responsibilities is drug interdiction. Is that correct?
    Admiral Faller. It is detection, monitoring, and then the 
interdiction as well, yes, sir.
    Mr. Garamendi. Thank you. How do most drugs enter the 
United States?
    Admiral Faller. Most drugs come through the United States 
crossing in through Central America, up through Mexico, across 
border, and also through the other means--containers, the 
mails, the ports--particularly the fentanyl, which has been the 
latest trend.
    Mr. Garamendi. How about the oceans or the Caribbean and 
the Pacific?
    Admiral Faller. Sir, both the Caribbean and the Pacific are 
high transit areas as the drugs flow out of----
    Mr. Garamendi. Those drugs that enter from Mexico, enter 
through the ports of entry or through unsealed border----
    Admiral Faller. Sir, I would defer to General O'Shaughnessy 
on the entry.
    General O'Shaughnessy. Sir, I would say both. And as we 
work with our Customs and Border Protection, we certainly see 
it through the ports of entry, we certainly see it through the 
containers, but we also see it through the open border.
    Mr. Garamendi. I see. How best can we spend $6 to $8 
billion? On border fences, or on Coast Guard activities, 
littoral combat ships, improvement of our detection at the port 
of entries? How would we best spend $6 to $8 billion?
    General O'Shaughnessy. Sir, from my perspective it is not 
one silver bullet that is going to defeat this threat to our 
Nation.
    Mr. Garamendi. So, how much would you apply to border walls 
versus ports of entry?
    General O'Shaughnessy. I would defer to policy on the 
specifics of that, but what I would say is----
    Mr. Garamendi. And the policy, Mr.----
    General O'Shaughnessy. Really needs to be a little bit of 
everything.
    Secretary Rapuano. So, border barriers is one approach in 
terms of----
    Mr. Garamendi. No. The question was, where would we best 
spend the money?
    Secretary Rapuano. So, if we were solely considering 
counternarcotics as the primary function that we are investing 
in and addressing versus all the other dynamics associated with 
the border?
    Mr. Garamendi. My question is, drugs. How best could we 
spend the money?
    Secretary Rapuano. Well, I can't speak----
    Mr. Garamendi. Would you spend it on the Coast Guard, would 
you spend it on ports of entry, or would you spend it on walls?
    Secretary Rapuano. I don't have the counterdrug portfolio--
--
    Mr. Garamendi. It is your task. You are not going to answer 
the question?
    Secretary Rapuano. No. I simply don't have the information 
to answer the question in terms of looking at drugs solely 
versus looking at border security or operational control of the 
border, which are two primary----
    Mr. Garamendi. Thank you. But you are not answering the 
question. Could you please provide me with the data? Thank you.
    General O'Shaughnessy, we have missile threats, we have 
cyber threats. What is the most imminent of those two threats?
    General O'Shaughnessy. Sir, I think the near term, cyber 
threats are happening every day. Quite literally. That said, I 
do have significant concern on the kinetic or missile threats 
as well.
    Mr. Garamendi. So, cyber threat is the most imminent, that 
is, here and now?
    General O'Shaughnessy. Yes, sir.
    Mr. Garamendi. Okay. And with regard to the cyber threat, 
amongst those threats, what is the most imminent of those 
threats?
    General O'Shaughnessy. Sir, I think as we look at what is 
happening every day within our infrastructure--when I say our 
infrastructure I mean as a Nation, not as the Department of 
Defense, clearly, we see both Russia, China working in 
malicious ways.
    Mr. Garamendi. Okay. Including things like elections. 
Therefore, where should we apply our money and our talent and 
task? To the immediate problem or to the long-term problem? I 
understand we will probably do both, but is there a 
relationship?
    General O'Shaughnessy. Well, again, sir, I do believe it is 
not one silver bullet that is going to take care of all the 
threats that we are faced with. So, it is both. I know from our 
Cyber Command is working diligently on the cyber threat.
    Mr. Garamendi. I guess the point--thank you. And I will 
just get back on it here. We have an imminent threat, immediate 
threat. We need to attend to that immediately. The long-term 
threat, missile defense and so forth, are also out there. I 
understand that.
    What is the single point of failure in the American system 
of our electronic systems? It is GPS [Global Positioning 
System]. It has been identified by the Federal Government for 
the last 25 years as the single point of failure. We lose GPS, 
these lights go out, your cellphone won't work, nothing will 
work. Most of the military equipment won't work. Is there a 
backup system to GPS?
    General O'Shaughnessy. And, sir, what I would like to do, 
is address that in a classified environment with you.
    Mr. Garamendi. My time is out. The answer is there is one 
available but does not yet exist and it is a problem for the 
continental United States. It is called E-LORAN [Enhanced Long-
Range Navigation].
    The Chairman. Thank you.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Thank you, lady and 
gentlemen, for being here and thank you for the work that you 
do. I wasn't here earlier, and you may have already addressed 
this--and if you did, if you would just quickly summarize it. 
But I would like to know, from your perspective--I know you are 
not the Department of State--where we are today with regard to 
the situation in Venezuela.
    Ms. Wheelbarger. I will start. I think, from our 
perspective, we continue to see the policy and our strategy of 
multilateral international diplomatic and economic pressure on 
the Maduro clique as working. The kind of regional support we 
see in rallying against him and for the interim president is a 
historical moment.
    We will be watching over the course of today as events 
unfold, because there have been calls for further protests. I 
think yesterday was a significant day, but we are watching what 
is unfolding today as well because they have called for further 
protest and we are seeing further pressure put on Maduro around 
their international community but also from within his own 
system.
    Mr. Byrne. Are there concerns that what is happening in 
Venezuela might destabilize some of their neighbors who are 
allies of ours in that region?
    Ms. Wheelbarger. Of course. That is a significant challenge 
we face, and we focus on, particularly given the migrant flows 
into Colombia and Brazil in particular. These are solid, 
important partners in the region for us and for regional 
stability, so we remain focused and concerned about the 
potential spillover effects to the region.
    Mr. Byrne. All right. Thank you.
    Admiral, let me ask you about China in Latin America. They 
seem to be growing their footprint there: One Belt, One Road. 
Other things that they are doing there. I know you can't 
address all of that from your perspective. But from your 
perspective, what can you address and tell me about what you 
can do, and what we can do to help you try to push back against 
China in our own neighborhood?
    Admiral Faller. The National Defense Strategy rightly calls 
out China as a competitor. It is--it has gone beyond that 
around the world, frankly. We are in conflict with China in the 
information space and for the values in democracy.
    We see that in this hemisphere. Over 60 port projects--that 
includes what we see in the NORTHCOM and the SOUTHCOM: 56 in 
SOUTHCOM in the Caribbean. They have locked up big development 
areas, both sides of the Panama Canal, significant IT 
[information technology] infrastructure investments. They have 
military dimensions to their involvement in space stations in a 
couple of the nations. Any discussion by China that this is 
soft power is simply not the truth.
    In the information space, we see where China--the state 
spokesman is outright just blatantly lying about some of the 
causality in Venezuela with respect to the electrical 
infrastructure, which was clearly Maduro's ineptness is the 
reason why the country doesn't have electrical power, and China 
blaming it on the U.S.
    So, across the front--democracy, human rights, rule of law, 
sovereignty--our partners and the values that this neighborhood 
has are aligned on those dimensions. And I know how China's 
don't align across those dimensions.
    And so, the best response for us is to be that strong, 
reliable, consistent partner, to be able to deliver our 
security assistance on time with a program that has return on 
investment for America and enhances the security of our 
partners. That starts with intelligence sharing.
    I get my best insights from the Chief of Defense; 
yesterday, for example, on the phone with the Brazilian Chief 
of Defense and the Colombian Chief of Defense with respect to 
insights on the Venezuela situation. But again, back to China. 
Completely unhelpful in Venezuela and across the hemisphere. 
The One Belt, One Road in front of that term certainly 
epitomizes what they are up to. One way for China's way.
    Mr. Byrne. Well, I get concerned sometimes. We look at 
China, and we think about the South China Sea and places over 
there in the Western Pacific, and we forget that they are 
present in our own hemisphere and I am concerned about that. I 
think a lot of us are very concerned about that.
    And we want to make sure that we are giving you the 
resources you need to accomplish what you have to accomplish in 
your mission: that is, to protect us and protect our neighbors 
in this hemisphere. So please let us know in the future what 
you need for us to give to you that you need to do your job. 
And I would like for us to do it.
    General, if we could, very quickly--I am going to run out 
of time. I would like to know if a space sensor would address 
NORTHCOM's requirements for missile detection and tracking for 
both ballistic and hypersonic missiles.
    General O'Shaughnessy. Yes, sir. My view is that it is 
absolutely critical for us to have a space-based sensing layer, 
an approach to get after the advancing threats that we see with 
both ballistic missiles, cruise missiles, and hypersonics, as 
you mentioned.
    Mr. Byrne. Good. Mr. Chairman, my time is about to run out, 
but I would make this observation. It is pretty easy to look 
around the world and think that our greatest threats are in 
Asia or the Middle East or, you know, with Russia. But we see a 
lot of those same threats visiting themselves here in North 
America and in South America.
    And I hope that we will never forget that it is our 
homeland that makes the most importance to her and our 
neighbors to our south. So, I hope you will let us know what we 
can do to be supportive of you. Thank you, I yield back.
    The Chairman. And that point is worth emphasizing. We have 
had, obviously, a focus on the National Security, Armed 
Services Committee on the Middle East, and while Afghanistan 
and Iraq, you know, dominated in the Middle East and Asian 
region. And as a consequence--and we haven't touched on this 
yet today--a lot of assets are not available to the Southern 
Command. They have been redirected.
    Now, that is coming back a little bit since we have drawn 
down completely out of Iraq--or, we were completely out of 
Iraq. Drawn down considerably in Iraq and Afghanistan. But it 
is a challenge for all of these missions that we're talking 
about, that you have kind of been at the back of the buffet 
line here in terms of assets. So we need to I think re-
emphasize the importance of this region.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. I yield my time to 
Representative Cisneros.
    Mr. Cisneros. Thank you, Mr. Gallego.
    Thank you all for being here today. I just want to follow 
up on Mr. Courtney's question regarding the letter from the 
former SOUTHCOM commanders. You know, Secretary Pompeo 
dismissed the State Department statistics that suggested U.S. 
aid programs in El Salvador, Guatemala, and Honduras, you know, 
had an impact on reducing homicide rates and migrants fleeing 
their countries, suggesting that the aid programs really had no 
positive impact that all.
    Admiral Faller, I know you are new to the position, but can 
I just get your assessment on what impact you think those aid 
programs will have on how you can do your job and be successful 
down there in those three countries?
    Admiral Faller. Had the opportunity to visit Honduras, El 
Salvador, and Guatemala within weeks of taking command because 
of the importance that that region has and the connection with 
the United States, our neighborhood, and I will be in Honduras 
next week again.
    I had the opportunity in each country to go visit some of 
the poorest neighborhoods and I wanted to talk to people and 
find out what was on their minds, what was influencing them to 
make decisions, whether to turn to organized crime or to travel 
to the United States.
    And one conversation with a young man who had gone all the 
way to the border of Mexico and the U.S. and come back just 
resonates with me. And I said to him, Well, why did you leave? 
And he said, Well, my neighbors had some food because they had 
family in the United States to send them money back.
    We were starving, and I knew how dangerous this was. The 
government was broadcasting the messages. But I wanted to keep 
my family from starving, so I went anyway. And I said, Why 
would you come back? He said, Because it was really, really 
dangerous when I got up on the border.
    So there is not one solution set, sir. It is got to be a 
broad series of kits that work, a suite. And the nations have 
to play and participate as well. And so, all those dynamics got 
to fit together and create sustainable security at home. And 
here, we forget sometimes that these are fragile democracies 
that are less than a generation old, that were going through 
civil war in our lifetime, so that plays into this, too.
    I will say with respect to mil-to-mil, the programs are 
working. I can't assess USAID versus everything else. But in 
Guatemala, the special forces that we have trained are stopping 
drugs that are flowing to the United States. And as Secretary 
Wheelbarger said, those programs are going to be permitted to 
continue at the mil-to-mil level.
    Mr. Cisneros. So would you say you agree with the statement 
from your predecessors that diplomacy and U.S. aid is an 
important part, and that it is needed there down in those 
regions?
    Admiral Faller. Those are highly esteemed mentors I 
respect. From a fundamental principle, around the world, it is 
important to have diplomacy and all the toolkits available. But 
I also would pivot to say, I think ensuring that our partners 
are doing their part and putting pressure on them is an 
important part of the equation. And so, I have actually seen 
evidence that the additional pressure we are placing on this 
being a true partnership, two-way, is changing some dynamics in 
a helpful way.
    Mr. Cisneros. Mr. Rapuano, news reports indicate that the 
acting Secretary of Defense in a memo to the comptroller, 
requesting by May 10th a list of military construction projects 
of sufficient value to provide up to $3.6 billion in funding 
for its consideration to defer in favor of the President's 
border wall. This committee has yet to receive that memo. Can 
you assure me that the memo will be shared with this committee? 
And when will it be shared?
    Secretary Rapuano. I can assure you the memo will be shared 
as soon as possible. You are talking about the memo in which he 
makes a decision with regard to 2808?
    Mr. Cisneros. Yes.
    Secretary Rapuano. Yes. He fully intends, and he has stated 
so that he will be sharing this with Congress.
    Mr. Cisneros. All right. And is the comptroller is in 
process of identifying specific projects. Has he made a 
determination yet that the border wall is necessary to support 
troops?
    Secretary Rapuano. He is still awaiting the Joint Staff 
assessment with regard to the role that the barriers play. And 
when he receives that assessment, he will make the decision.
    Mr. Cisneros. All right. So have you been involved in those 
conversations regarding what criteria, beyond simple no forms 
of military housing projects that have been already awarded or 
will be awarded this fiscal year, will be followed to identify 
military construction projects that will be delayed to pay for 
the President's wall? If so, what are that criteria?
    The Chairman. And that we are going to have to take for----
    Mr. Cisneros. Oh.
    The Chairman [continuing]. The record because----
    Mr. Cisneros. Yes.
    The Chairman [continuing]. We are just completely out of 
time. And I am pretty sure the answer----
    Secretary Rapuano. We will provide it for the record.
    [The information referred to can be found in the Appendix 
on page 121.]
    The Chairman [continuing]. Wouldn't be terribly 
satisfactory anyway. Just for the committees, we have not yet 
been told what projects the money is going to be taken from. We 
continue to ask that question in a variety of different forms. 
And the sooner we can get that answer--I wouldn't go so far as 
to say the happier we're all going to be, but at least the more 
informed we will all be about what our challenges are. So, we 
are still waiting to find out exactly where that money is going 
to----
    Secretary Rapuano. And that decision has not been made by 
the Secretary yet.
    The Chairman. Apparently. But as soon as it is, we would 
like to know what it is.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Chairman Smith.
    General O'Shaughnessy, thank you for visiting my office 
yesterday. Can you describe NORTHCOM's role in the Missile 
Defense Agency's decision-making process for determining the 
benefits and location of potential third continental 
interceptor site on the East Coast?
    General O'Shaughnessy. Yes, ma'am. And thank you for the 
time yesterday to talk about this and other issues. NORTHCOM as 
the operator, if you will, has a significant input with MDA 
relative to what that future would look like.
    We started with over 50 different locations that we are 
looking at. We work closely with MDA for our operational 
criteria that we wanted to be included in that. We provided an 
assessment to MDA and work with MDA for that. And that has been 
incorporated into the MDA's ongoing work in this regard.
    Ms. Stefanik. Thank you. Can you expand upon the 
operational criteria?
    General O'Shaughnessy. Sure. Without going into great 
classified detail, but broadly what we are looking at is, as 
you know, we have two interceptor sites already at--one at Fort 
Greely and one in California at Vandenberg. One of the 
opportunities this would provide us is a dispersal for that.
    It would potentially give us the opportunity for a shoot-
look-shoot. And that is just pure geometry and geography, if 
you look at what that would allow us to do. And of course, we 
need other sensors to be able to actually be able to take full 
advantage of that. And of course, we want to look at what is 
the effectiveness of the location in order to defend our 
defended area, which obviously includes United States.
    Ms. Stefanik. And in terms of your assessment, we are 
working with the Secretary of Defense to get a timeline as to 
when the preferred site would be announced. So without getting 
into the specific site, can you expand upon how the 
recommendation and assessment was given to MDA?
    And by that I mean, did you rank the three sites? Did you 
look at specific operational capabilities and say what sites 
meet those capabilities? How did the assessment--how was that 
formed?
    General O'Shaughnessy. Our input is early in that process 
in the sense of we are providing the input into MDA, who then 
co-locates our--takes all of those inputs and puts them 
together into a recommendation that they will ultimately give 
to OSD through Dr. Griffin's office.
    Ms. Stefanik. Okay. Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Gallego. Or, sorry, Mr. Carbajal. Sorry.
    Mr. Carbajal. Thank you, Mr. Chair. And thank you to all of 
you for being here today. In California and the Central Coast, 
we now experience a year-round fire season. It is no longer for 
a smaller period of time.
    Throughout California, and again in my district 
specifically, every time we experience one of these major 
events, we depend on the Defense Department--to be specific the 
California National Guard. We recently were successful in 
helping them get more equipped with Black Hawk helicopters.
    But as we rely on the California National Guard, one thing 
has become evident. In order for us to use some equipment, they 
have now identified a challenge. Governors have requested the 
use of unmanned systems for emergency, disaster, search and 
rescue, and defense support to Federal and other civil 
authorities, like the Coast Guard.
    However, unlike all other assets in the National Guard 
inventory, there is a restriction on their use, requiring under 
DOD policy that the Secretary of Defense himself must sign off 
on each individual use, a far too long of a process that is 
potentially life-threatening for our communities. NORTHCOM is a 
part of that domestic use chain, and we understand you have 
worked with incident commanders in California several times to 
employ them when approved.
    General O'Shaughnessy, do you see any reason to continue 
prohibiting Governors' immediate access to unmanned systems to 
help protect our citizens during emergencies? And two, how can 
we help expedite this process to ensure timely response to 
disasters.
    General O'Shaughnessy. Yes. Thank you for highlighting the 
great work that the Guard is doing in support of those 
wildfires. In fact, we work closely with Dave Baldwin, your TAG 
[The Adjutant General] General Baldwin. And in fact, I have 
ridden on those very helicopters you mentioned, looking at some 
of the fires that were happening in California earlier this 
year.
    One of the things I will say is the UASs that you mentioned 
are a high-demand, low-density asset. My sister combatant 
commanders do not have the ISR [intelligence, surveillance, and 
reconnaissance] that they require. And as such, it has been 
trying to look at those assets on the global front to see where 
is it needed.
    And it is not just the asset themselves, but also the work 
that has to be done on the back end, that we call it the PED 
[processing, exploitation, and dissemination]. You know, you 
have to process the information that comes from that UAS. And 
so that is why we keep that at a very high level.
    What I will say is I pledge to continue to work with Dave 
Baldwin. In fact, last year there was an occurrence during a 
fire season when he called me directly to ask for assistance to 
get the clearance from the Secretary of Defense. And within 
hours of his call, we actually got the Secretary of Defense's 
approval to use that asset.
    And so, I think the processes are in place. We can continue 
to expedite it, and I commit to work closely with the Guard. 
But I am not opposed to the system as it sits today. And the 
OSD and Secretary of Defense office has been responsive to the 
request that we have made in the past.
    Mr. Carbajal. Well, that sounds great. But as long as it 
works as we think it does, can we put in some kind of 
performance that, when that communication comes from various 
jurisdictions, there is some kind of response period so that we 
know within what time period we can get some kind of an answer 
that that will take place?
    Because when these incidences are happening, every minute, 
every hour, is essential and critical. And if it is going to 
take days, well, you might as well as not have this in place, 
not even have that asset available. Is there any way we can 
look at the system, the chain of command and communication, to 
make sure that there is a timely decision-making point so that 
communities can get the help they deserve and need?
    General O'Shaughnessy. Yes. We can't commit to what the 
answer would be at the end of that, but I do believe it would 
be prudent for us to put a timeline to make sure that we are 
held accountable for getting a decision, whether the decision 
is yes or no: yes, it is available; or, no, it is not 
available; yes, it can be used; no, it won't. So, I will work 
with both you, I will work with General Baldwin, and work with 
OSD to determine what that timeline ought to look like.
    Mr. Carbajal. Great. I would appreciate your office 
following up with mine. Thank you very much.
    Secretary Rapuano. I would just quickly add that, to my 
knowledge, when those requests are delayed, it is because there 
is a multiple demand signal for the high-demand, low-density 
asset. When the system is available, the decisions are made 
very quickly.
    Mr. Carbajal. Well, it would be great to look at the past 
20 times that has been requested to see how efficient the 
system is working and where we need to make improvement. So, 
thank you very much.
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Admiral Faller, I want to commend your very strong 
statement on the brutal Maduro regime at the start of this 
hearing and the way in which Cuba and Russia have violated 
Venezuelan sovereignty. In simple terms, what tools do you have 
in the kit to prevent enhanced Russian meddling or even Chinese 
meddling or Cuban meddling in Venezuela as we try and shape a 
positive outcome?
    Admiral Faller. Clearly, the reason this crisis has gone so 
long, responsibility squarely rests, as you pointed at, 
Congressman, on Cuba, Russia, and, to some extent, China. China 
has an opportunity, I think, in the international community to 
step up and help with this and they haven't.
    In the information space, in the intelligence space, in our 
partner, in our security cooperation, we have the tools we need 
and we are using the full range of those tools, from cyber to 
public messaging and information security cooperation. We are 
using assets diligently and quietly in a number of ways to help 
paint the picture of what is going on inside and outside the 
country. And then we are sharing that with the interagency in 
full cooperation in a manner that matters. The region has been 
exceptionally united.
    Last week, I was in Colombia, and the Colombian Chief of 
Defense and myself hosted a multinational border meeting with 
Peru, Ecuador, Brazil, and Colombia. We discussed the range of 
challenges that affect the region. Central to all of those was 
Venezuela, and to the extent to which Venezuela complicates and 
magnifies every single problem that affects the region, and the 
extent to how these external state actors are meddling in a way 
that is unhelpful to democracy.
    So, those discussions lead to coordinated calls for action. 
And we are all united and we are all standing firmly behind 
diplomacy and the need for this democratic process to work. And 
it will.
    Mr. Gallagher. President Trump suggested a complete embargo 
of Cuba if Cuban troops don't cease their activities in support 
of Maduro. If you were to get such an order, do you have the 
assets necessary to effectuate such an embargo?
    Admiral Faller. Again, back to Cuba's centrality in all 
things bad in this hemisphere, including how they are just 
simply completely protecting Maduro, all the inner circle 
Praetorian Guard around Maduro, the intelligence service all 
infiltrated. And so, putting pressure on Cuba is a good thing. 
Maximum pressure a good thing.
    We are aware of the embargo--those orders and we are 
carefully looking at plans and what it would take to do that, 
and I am not prepared to discuss in open setting what it would 
take.
    Mr. Gallagher. Fair enough. Fair enough. Looking more 
broadly to Chinese investment in SOUTHCOM AOR [area of 
responsibility], how should Congress think about or be 
concerned with Chinese investment in and around the Panama 
Canal?
    Admiral Faller. Looking around the world, we have to think 
globally about China, certainly the South China Sea and the 
INDOPACOM [U.S. Indo-Pacific Command] area are a central piece 
of this, but they are a global power and they are acting 
globally. Their investments are global. The number of 
agreements that China's signed with government of Panama, the 
extent to which they have locked up contracts for 
infrastructure for IT, for port facilities, is an area of 
concern.
    Panama still wants to partner with us, and we still share 
much more in common than they do with China, but they have 
turned to an economic partner of necessity vice choice. And so 
we have to look at that more broadly in our strategy in the 
Department of Defense, as part of the whole government 
strategy, is looking at those high leverage points around the 
world where we need to insure the access and influence that the 
United States needs as a global leader.
    Mr. Gallagher. Sure. Quickly, Assistant Secretary Rapuano, 
first of all, I want to thank you for your help with getting 
the Cyberspace Solarium Commission off the ground. I know it 
has been a bureaucratic struggle, but I think we are on a good 
path and I want to thank you for your participation in that.
    You know, we have talked a lot about future of 5G and some 
of the decisions our allies are making in terms of excluding 
Huawei and ZTE from their network, debating that. But it seems 
like we still have a little bit more work to do here at home. 
Could you just talk briefly about your concern, if any, about 
Huawei's activity in the United States in general, particularly 
in rural networks where we really don't have good visibility?
    Secretary Rapuano. Well, thank you. And thank you very much 
for the role that you played with the Solarium Commission, and 
it has been very productive thus far and I look forward to it.
    With regard to 5G, obviously, we have very significant 
concerns. We have concerns about Huawei. We have concerns about 
allies and partners, in particular, in terms of systems that 
may be allowing Chinese access and the accessibility of 
information that we are sharing with partners and allies. So 
that is an ongoing effort, engaging with them to give them a 
better appreciation for what the risk and threat is----
    The Chairman. And if I could follow--the gentleman's time 
expired.
    We are going to do a couple things which are on this point 
within the bill. One is to try to take further steps to make 
sure that we cut off Huawei and ZTE from participating in--
having any part of our 5G going forward.
    But one critical part of that is to develop the domestic 
capability because one of our problems is, we don't have any 
domestic capability--and I forget the technological term, but 
the stuff that makes it go from the device out into the--we 
don't build that. There are a couple European companies--Nokia 
and Ericsson, and Samsung--we are trying to develop a domestic 
capability, which DOD is--they're buying their own 5G piece so 
it could help with.
    So that is something we are going to be really interested 
in, blocking Huawei and ZTE, but also making sure that we have 
a domestic capability, so we have that alternative because, 
regrettably, those other three that I mentioned aren't 
necessarily providing what we need. So look forward to working 
with you.
    And I know, Congressman Gallagher, you have a big interest 
in this, so we will certainly loop you in the work on that as 
well.
    With that, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. Thank you to all of 
our witnesses this morning.
    General O'Shaughnessy, the President's budget is proposing 
reallocating a billion dollars in funding for military 
construction, including funds intended to repair hurricane-
damaged installations along the east coast, for construction of 
a border wall.
    During the recess, I toured five of our bases, one of which 
was Camp Lejeune, that is filled with buildings that are 
tarped. And I remember them saying they had about 3 billion 
dollars' worth of damage there. In your estimation, what poses 
a greater security challenge to our homeland? Asylum seekers 
and economic migrants on foot, or ill-equipped Marines and 
soldiers living and training in unsafe buildings?
    General O'Shaughnessy. Ma'am, the individual services are 
the ones who--in this case, the Commandant of the Marine Corps 
is the one who is actually working the recovery efforts for 
Camp Lejeune. It doesn't fall under the NORTHCOM 
responsibility.
    Ms. Speier. Okay. Then, Secretary Rapuano, there has been 
an analysis from the Brookings Institute that a strategy 
centered around capturing high-value targets in 
counternarcotics operations intensifies violence by fomenting 
turf wars, which lead to corruption of law enforcement 
officers. What strategies is the U.S. engaged in, 
counternarcotics operations employing in order to ensure that 
they do not perpetuate corruption and further destabilize the 
region?
    Secretary Rapuano. So, I will turn to Secretary Wheelbarger 
to address that issue.
    Ms. Wheelbarger. Thank you, ma'am. I don't directly have 
responsibility for counternarcotics policy, but I do have 
responsibility, obviously, for the region. From the Department 
of Defense's perspective, both counternarcotics activities as 
well as counter-trafficking activities is a major line of 
effort for the Department.
    We do this in support of local law enforcement as well as 
our interagency partners, the Coast Guard in particular. But 
part and parcel of everything we do as a partner in the region 
is, again, developing the capability and capacity of these 
local governments to defend themselves against their external 
as well as internal threats.
    Earlier this morning, the chairman brought up Plan 
Colombia. I just want to highlight that the success of Plan 
Colombia over a couple of decades is because it had bipartisan 
support from Congress for decades. The kind of sustained 
partner capacity programs we need to be successful across the 
host of threats in the region not just counternarcotics or 
counter-trafficking or the drug cartels really it takes our 
sustained commitment to these partners.
    And so, you know, the strategy is a whole-of-government one 
in terms of addressing the challenges of the region. But with 
respect to our particular capabilities in the Department, it is 
really ensuring that our partners have resources and 
capabilities to secure themselves internally.
    Ms. Speier. So who should I talk to specifically within 
your Department on this issue, then?
    Ms. Wheelbarger. Assistant Secretary Owen West has 
responsibility for our counternarcotics programs.
    Ms. Speier. All right. Thank you----
    Secretary Rapuano. I just would note that no funding has 
been taken from the 284 counterdrug programs for barrier 
construction, either to NORTHCOM or Southern Command.
    Ms. Speier. No. I was asking a different question. Thank 
you, Secretary.
    Secretary Wheelbarger, in your written statement, you 
described the need to address great power competition with 
China and Russia in the Western Hemisphere as they seek to 
expand their political, economic, and military influence 
throughout Latin America. The initiatives by China are pretty 
widespread around the world.
    According to Pew polls, in 2016, 66 percent of Latin 
America held favorable views of the United States. But by 2017, 
the favorability had dropped by 19 points. Given this 
considerable and rapid decline, are we still able to appeal to 
militaries in the region as a source of training, equipment, 
and leadership? Are we still well-positioned on the field that 
you mentioned?
    Ms. Wheelbarger. Yes, thank you. Global competition with 
China is, as the National Defense Strategy indicated, one of 
our key priorities as a department. We stressed to our 
partners, as Admiral Faller mentioned earlier, it is not just 
what equipment you can get or what training you can get, but 
actually how much you can trust the partner that you are 
partnering with. And the United States continues to be well-
positioned throughout the region to be the security partner of 
choice.
    I think from the day-to-day activities throughout the ranks 
of our government, whether it be our training in the United 
States or in the region, we continue to be well-positioned to 
compete and grow in our competition in the region.
    And I would defer to Admiral Faller, if you have any other 
thoughts.
    Admiral Faller. Thanks for the question. From the mil-to-
mil perspective in my travels--and I have met with almost every 
single Chief of Defense or Minister of Defense, and we try to 
get out beyond that. When my wife goes with me, the people 
still want to and value that relationship with the United 
States above all. So, whatever the polls say, ma'am, what I am 
seeing in person and what my team is seeing is an affinity to 
work with us and trust us.
    Ms. Speier. I know my time is expired but while you may 
dismiss the polls based on your personal interactions with 
people, I think it is very important to recognize that there 
has been slippage and what are we going to do to raise it.
    Thank you, I yield back.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. And thanks to all of 
you for being here today. And it is nice to see General 
O'Shaughnessy again. I used to serve with him a few years ago.
    My first question is to Admiral Faller. You know, Venezuela 
used to be the richest, wealthiest country in South America and 
in the region, but the dictatorship and the socialist policies 
have broken it. Can you give us, you know, your feedback on 
just how bad it is for the average Venezuelan?
    Admiral Faller. Shortly after I assumed command, I had the 
opportunity to go out on the United States Naval Ship Comfort, 
which we had deployed to the region to provide comfort, medical 
support, lifesaving stability to--the entire region was 
impacted by this crisis. And I got to see some small children, 
8-year-old, 9-year-old kids.
    The average Venezuelan has lost 20 pounds in the last year. 
These kids were emaciated. It is the first time they had 
received any medical treatment in their lives. I don't think 
they knew who I was or what I was about. Their mother certainly 
did. And the look in her eye, and the conditions that she 
represented impacts the entire region.
    Over 3 million people have been migrated out of Venezuela. 
It is on track to be worse than the Syria migration crisis by 
the end of this year. That is affecting all aspects of life. 
Ninety percent of the people are malnutritioned and starving. 
Most of the country's without power; we see that daily. And it 
is a dictatorship and brutal in all ways.
    Mr. Bacon. The governance has devastated its own people, is 
what I am hearing.
    Admiral Faller. Yes, sir.
    Mr. Bacon. On a different tack, it seems to me that 
Colombia and Chile's been sort of the pillars of our engagement 
in South America, or at least our closest relationships. Do I 
have that characterized right?
    Admiral Faller. Colombia's an example, when we have a long 
view, we stick to a plan over 20 years, as Secretary 
Wheelbarger stated, with people committed to their democracy, 
their own security, where we can have impacts. Colombia this 
year is on track to train over 1,000 security personnel in 
Central America.
    Those security personnel are going to contribute to the 
security of their countries--Honduras, Guatemala, El Salvador, 
and beyond--and the United States. They are a capable and 
willing partner. Chile stepped up and has stepped up 
consistently. They have participated in some of our 
international exercises at a leadership level, and they remain 
a very capable and committed partner.
    Mr. Bacon. I sense from what I am hearing from Brazil that 
there is a desire to draw closer with us, which is, I think, 
good news. Could you just give us your views or your 
perspective on the potential of what we can do with the 
stronger ties of Brazil?
    Admiral Faller. Brazil's a resource-rich country that has 
the same values of us, the second-largest democracy in the 
hemisphere. They are all in. We have been down to Brazil. They 
have been to see us. We are integrating our staffs, we are 
sharing information. They are looking for ways to strengthen 
intelligence sharing, exercises, education.
    Part of our security assistance program is so important is 
this International Military Education and Training, IMET that 
it is referred to. It is State Department-funded in foreign 
assistance. It is a foundation. We build life-long friends. I 
am looking to double that this year, but I will need the 
support of Congress to raise that level of assistance. And 
Brazil's all in. They want to double the number of people they 
send to our schools.
    Mr. Bacon. Thank you.
    General O'Shaughnessy, you have such an important mission, 
so does STRATCOM [U.S. Strategic Command], so does the future 
of Space Command. And it seems like there is some overlapping 
potential there, or mission areas. How do you deconflict and 
what are some of the challenges there? Thank you.
    General O'Shaughnessy. Yes. It may be looked at as a 
challenge, but it is also an opportunity. And we are clearly--
STRATCOM has morphed over several years--if you look at Cyber 
Command coming out now, look at Space Command--and that has 
given us an opportunity to really look at all of the mission 
sets and try to determine what is the best organizational 
construct there.
    What I will say and report, without a doubt, it is a 
collaborative perspective that we are taking. And if you look 
at all of the players--whether it be General Hyten, whether it 
will be--at least on Air Force Space Command is being worked by 
Jay Raymond. How do we best do this? That is the only question 
that is being asked. I think we will be able to work our way 
through this. But in the end, I think we will end up being 
stronger than we are today.
    Mr. Bacon. Turn my mike back on. Are we where we need to be 
when it comes to speediness of response? NORTHCOM detects 
threats, then STRATCOM would have to respond. Do we have that 
as seamless as possible?
    General O'Shaughnessy. I would say we do. And actually, it 
is NORTHCOM responds as well as the operational--we are 
actually the ones who do the ballistic missile defense. 
STRATCOM--and we are tied on the same conferences in literally 
seconds, not minutes in the way we respond together.
    Mr. Bacon. Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Hill.
    Ms. Hill. Thank you. Thank you all for your service.
    General O'Shaughnessy, you spend a great deal of time 
talking about Russian threats, including their investments in 
long-range, low-radar, cross-section cruise missiles that can 
be fired from aircraft or subs against targets within the 
United States. And in particular, about advanced long-range 
cruise missiles capable of flying through the northern 
approaches.
    Can you talk about the potential capability of the F-35 in 
missile defense?
    General O'Shaughnessy. Certainly. And as we look at these 
threats that you mentioned, one of the reasons that we are most 
concerned about is, we see not only a capability and a 
capacity, we see a doctrine where their very strategy, as they 
articulate it, is to take attacks on our infrastructure. And 
then we look at the patterns of behavior that they do. For 
example, their fly of the missions that are clearly flying 
practice attacks against North America.
    So, to that end, we want to make sure we have the most 
advanced capability that we can possible have. F-35 has proven 
itself. In fact, we just heard in the news--it just dropped in 
combat within the last 24 or 48 hours. But more importantly, it 
is the ability for it to fuse all of the capability together 
that becomes critically important because it is not just the 
endgame is how you get after the cruise missiles. It is the 
sensors that have to all fuse together for that to work.
    And whether it be from Red Flag scenarios that we see, the 
exercises that we do, we see the F-35's real capability and 
capacity is its ability to essentially be the quarterback, if 
you will, to bring all that together. So, we see it as vital 
going forward.
    Ms. Hill. So you need them.
    General O'Shaughnessy. We need them and as many as we can 
procure.
    Ms. Hill. Great. Okay. And then along the same lines, what 
is your biggest challenge when dealing with Russian military 
aircraft in the U.S. and Canadian air defense identification 
zones?
    General O'Shaughnessy. Our biggest challenge we have right 
now is domain awareness. Many of our systems were designed in 
the Cold War era. And as the Russians have advanced their 
capability, we need to stay ahead of that and advance our 
capability and be able to understand what is happening. In the 
Arctic, as an example, we are currently challenged and need to 
advance our capabilities.
    Ms. Hill. So I think you mentioned there has been an 
increase in these interactions in the last few years. Is that 
correct?
    General O'Shaughnessy. It is increased in the number but, 
really, they have been up and down as they have gone through a 
modernization with their bombers. But more importantly, it is 
the complexity of the events that we are seeing. Very complex, 
very much more integrated with multiple platforms that has us 
concerned.
    Ms. Hill. Thank you. Are there resources that you need that 
you are not currently receiving to execute this part of the 
homeland defense strategy?
    General O'Shaughnessy. As always, much like my partner here 
in SOUTHCOM, we are always looking to make sure that we have 
the adequate resources to defend our Nation. We do. But I will 
say that, going forward, as this becomes more and more advanced 
weaponry, we want to make sure that we maintain the ability to 
stay ahead of those threats is probably our most pressing 
concern.
    Ms. Hill. So as we move to an all fifth-generation fleet, 
is it fair to say the F-35 would be used for these missions as 
well?
    General O'Shaughnessy. Yes.
    Ms. Hill. Okay. Admiral Faller, in your statement, you 
mentioned a Russian spy ship with the capability to map 
undersea cables. Are you able to tell us in this setting what 
is being done to harden and protect the fiberoptic systems that 
connect our world?
    Admiral Faller. I can speak broadly about Russia and the 
region. The specifics would not be able to go into in this 
setting. But around the world, Russia is advancing their 
interests in ways that are harmful. And we see this around the 
world, and we see it in Latin America and the Caribbean as 
well.
    Ms. Hill. So, I guess that kind of leads to a simple 
summary from you all. Would you say just in terms of North and 
South America who is our most dangerous and eminent threat?
    General O'Shaughnessy. I would say in the long term it is 
China, without a doubt, as a nation, I think, as we look at the 
threat that China presents us. But in the short term, we have 
significant concerns about the Russian capability and their 
patterns of behavior and what they have shown to be an intent.
    Admiral Faller. China, without a doubt. And our best 
defense is to ensure that our defense remains strong, that our 
people are ready, that we invest in it appropriately, and we 
don't overlook the home game here in this hemisphere, with 
security cooperation being key. It is a small dollar value with 
a high return on investment.
    Ms. Hill. And, Ms. Wheelbarger, would you agree? And Mr. 
Rapuano?
    Ms. Wheelbarger. Yes. Absolutely. I sometimes describe it 
as, I think China is our chronic threat and, in some ways, 
Russia is our acute threat right now, given their misbehavior 
around the world. But we have to make sure we address them 
equally as well as ensure stability around the world, so we 
don't get distracted as we maintain that long-term focus.
    Secretary Rapuano. I also strongly agree. And just on the 
partnerships and alliances, they are tremendous force 
multipliers for us. And the United States is unique in our 
history and ability to leverage those partnerships.
    Ms. Hill. Thank you, all. Yield back.
    The Chairman. Thank you.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Admiral, if the DOD was prohibited from contracting with 
any persons that had business operations with an authority of 
Venezuela that is not recognized as the legitimate government 
of Venezuela by the Government of the United States, which 
capabilities would you expect could be impaired from our 
standpoint?
    Admiral Faller. More broadly, I think anything we can do to 
impact and pressure Venezuela and continue this necessary 
transition to democracy, we should be doing. And I know we are 
looking at that across the full range. My suspicion is we 
haven't done it yet, we just haven't thought of it because the 
full-court press from our leadership on.
    To the specifics of your question, I am not aware or 
understanding of any impacts on those, but we would have to 
look at them case by case.
    Mr. Gaetz. Well, thank you for that response. And if you 
could take that for the record and--and provide responses, 
because I believe my colleague Mr. Waltz and I are going to 
introduce an amendment to the NDAA to assist you in achieving 
that pressure. But in doing so, we don't want to have the 
inadvertent effect of hamstringing DOD. I don't expect that it 
would do that. Your clarification that you can't think of a 
circumstance where it would, is similarly helpful.
    [The information referred to can be found in the Appendix 
on page 121.]
    Mr. Gaetz. I want to now ask about how the United States is 
interacting with and engaging in the ongoing crisis in 
Venezuela. If the United States were to have uniform military 
in Venezuela, engaging in operations, have we modeled out or 
planned or conducted analysis regarding how some of the other 
ALBA [Bolivarian Alliance for the Americas] nations would react 
to such an action?
    Admiral Faller. First, looking at the range of things we 
are thinking about, discussing with our partners, our allies 
within the interagency, we are looking at ways to be helpful to 
the inevitable rise of legitimate Guaido government. And then 
how do we set the table afterwards to ensure that those 
professional military forces get the training, the assistance 
they need. This will be a regionally led issue.
    The countries in the region that aren't democracies--
Nicaragua, Bolivia, Cuba--and the external actors that don't 
believe in democracy, although they may say they do, they are 
not going to be happy about anything we do. I mean, Russian 
news agencies had repeated reports of----
    Mr. Gaetz. Other than unhappiness, which I appreciate and 
understand, are there other activities that we have had to 
analyze or plan for? For example, if we were to put uniform 
military on the ground in Caracas, do we have contingency plans 
for mass protests in other Latin American capitals?
    Because, as I have analyzed how the region perceives the 
possibility of U.S. involvement--and I understand we've got to 
keep every option on the table, that U.S. involvement is very 
popular right now in Venezuela and with the Venezuelan 
diaspora. But U.S. direct involvement with uniformed military 
is very unpopular with every other Latin American country. If 
you are aware of information that is different or more up-to-
date, I would love to hear it.
    But I just wonder whether or not our military--and I know 
we are involved in a lot of train-and-equip missions with these 
other partner nations--if we are planning for the potential of 
the Venezuelan crisis erupting into a broader regional crisis, 
if the arrival of American troops on the ground gives Maduro 
the ability to externalize his conflict, to scapegoat his own 
failures, and then to deny the organic efforts of the 
Venezuelan people to fight for a brighter future.
    Admiral Faller. I wouldn't want to speculate anything that 
Maduro's thinking. I am not sure he does. But the details of 
the different course of action, things we are looking at, I 
would take in a closed session. Broadly, we are looking at--as 
I have said, the leadership has been clear. Our job is to be 
ready and we are on the balls of our feet.
    Mr. Gaetz. And I have no doubt, as the Congressman for the 
7th Special Forces Group, that we are ready, and we can take 
the fight to the enemy and we can win it. I just want to make 
sure that if we are going to have that fight and if it becomes 
necessary, that we have really thought out all the options 
when, in my experience, there is a good amount of latent 
resentment in some pockets of Latin America that date back to 
prior administrations and their involvement in--in the 
continent.
    And so, I certainly am proud of that state of readiness. 
And I would similarly add that, over the last decade or so, the 
great work at SOUTHCOM has greatly enhanced the capabilities of 
our partner nations. The Colombians, the Peruvians, they are no 
joke. They can bring the fight and I think that that is a 
consequence of the great work that has been done at SOUTHCOM.
    And I hope that, you know, as circumstances continue to 
change in Venezuela, that we leverage the great work that we 
have done so that we have, as you described, a regional 
approach and not a unilateral approach by the United States.
    Admiral Faller. I would like to commend the 7th Special 
Forces Group and our teammates in your district that are ready, 
they are ready to go and they have a focus on the region. And 
we actually need more of their presence. Thank you.
    Mr. Gaetz. Thank you. I yield back.
    The Chairman. Thank you very much.
    Mr. Moulton.
    Mr. Moulton. Mr. Chairman, thank you. And thank you, all, 
for everything you do to keep us safe. A lot of American lives 
are entrusted in your care. I want to actually pick up where 
Mr. Gaetz left off and ask a similar question. This kind of 
harkens back to the Iraq experience. You say you have 
contingency plans if we were to do something in Venezuela.
    Do we have any plans for what happens on the day after not 
just in other countries but in Venezuela itself? We have 
obviously been through the experience of having great invasion 
plans and no plans for what to do next in recent conflicts.
    Admiral Faller. The complexity of the situation, the 
magnitude of the misery, is going to require every element of 
international unity that currently exists to focus on recovery 
of the economic infrastructure, the oil infrastructure, port 
facilities, electrical infrastructure that Maduro has ruined.
    There are ongoing efforts to look at all aspects as--at my 
headquarters, we call it Day Now because there is going to be a 
day when the legitimate government takes over and it is going 
to come when we least expect it and it could be right now. So, 
we are calling it Day Now planning.
    Mr. Moulton. And do those plans exist in the contingency of 
U.S. military intervention as well, Admiral?
    Admiral Faller. Our ability to be ready for anything that 
the President has been clear might be on the table is things we 
are looking at. We are on the balls of our feet. Details of 
what those plans look like I would take in closed session.
    Mr. Moulton. Okay. I would like to shift to Mr. Gallagher's 
question about Panama. And I understand you answered it 
briefly. But just tell me in general, here. You have all stated 
the influence of China is the greatest long-term threat to the 
security and safety of the United States. I would agree with 
you. What is the worst-case scenario with the Chinese presence 
in Panama?
    Admiral Faller. I would like to start by pointing out what 
Panama is doing for us. So, the canal remains open and free, 
and the canal authority remains independent and operational. 
Panama has stepped up their game in the drug interdiction 
through our security cooperation----
    Mr. Moulton. Admiral, with all due respect, I am asking 
about the worst cases, not the best----
    Admiral Faller. The worst case is that I can't answer that 
question in that way a year, 2 years, 5, or a generation from 
now because Panama Canal, both the zone and the ends of the 
canal are controlled by Chinese and they actually influence 
Panama in a way that is counter to any international interest.
    Mr. Moulton. So since we are heading in that direction, 
maybe quickly, maybe slowly, what can we do to stop it? What 
should we be doing to turn Chinese influence away, because 
right now it just seems to be increasing?
    Admiral Faller. Military dimension that has to stay strong. 
Our partnerships must be consistent. We must be responsive in 
our security cooperation. Some of the tools that Congress has 
given us are good, but they are not responsive enough. The 
current way that we have implemented our 333 authorities are 
too slow. A lot of that is on the Department to look itself in 
the mirror and figure out how to speed it up.
    Some of this could be better if we had 2-year money and 
combatant commanders had some additional authority to deliver 
on small things that can help both our partners and return on 
investment for the security of the United States.
    Mr. Moulton. Admiral, in general, do you think we are doing 
enough as the United States of America to deter the Russian and 
Chinese influence in our hemisphere?
    Admiral Faller. We are doing everything we can and that 
will never be enough or fast enough, so we have to act with a 
speed of urgency----
    Mr. Moulton. I mean, frankly, if their presence in the 
region were decreasing, I would say it is probably enough. I 
mean, it is headed in the right direction. But it doesn't seem 
to be headed in that direction.
    General, do you have any comment on this? Do you think we 
are doing enough to deter Russian and Chinese influence in our 
hemisphere?
    General O'Shaughnessy. Well, I would agree with Admiral 
Faller in that we do need to continue to--I will just use our 
own within NORTHCOM AOR. Look at the Bahamas. It is a nation 50 
miles off the coast of Florida, yet we are seeing Chinese 
influence right there. And it does not take a significant 
amount of dollars, frankly, for a very positive affect.
    And so, the more that we can look at it within this 
hemisphere and focus our efforts not just with China and the 
Asia-Pacific region, but in the Western Hemisphere as well, I 
think we will see the fruits of that pay off fairly quickly.
    Mr. Moulton. Well, I hope you will be a partner with us 
with the development of the NDAA to help in that mission.
    Ms. Wheelbarger, we don't have much time left, but I just 
wanted to ask you, do you think Plan Colombia should be a 
model? Should Plan Colombia be a model that we duplicate 
elsewhere?
    Ms. Wheelbarger. I think it is dangerous to always think 
about duplicating programs in--in countries or locations that 
are not exactly the same. But I will say as a model of a whole-
of-government approach and interbranch approach to a particular 
problem set, it is a model.
    And I have used it as one of the examples I give of our 
security cooperation truly working because it was long-term, it 
was sustained, it had bipartisan support, and it didn't just 
focus on tactics and operations. It focused on true defense 
institution building and that is the sort of thing we need to 
be doing around the world.
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Moulton.
    And I would say, you know, when we look back to the Central 
American countries where most of the migrants are coming from, 
whether Plan Colombia is the exact model or not but some sort 
of comprehensive plan in that region is probably the best thing 
we could do to deal with the migrant crisis that we have.
    Before I call on Mr. Waltz, I want to welcome him to the 
adults' table. For those of you who don't know, we had to 
reconfigure the room here. He used to be all by himself down 
there in front, right next to the witnesses. And now he has 
joined the rest of us.
    So, welcome. And you are recognized for 5 minutes.
    Mr. Waltz. Mr. Chairman, I have spent a little bit of time 
on forward outposts and I like to consider it the forward 
combat post up there but thank you for that and thank you all 
for coming today. And just to add to my colleague Seth 
Moulton's comment there, I do think Plan Colombia--as a Green 
Beret, I am a little bit invested in that one, as the tip of 
the spear in Plan Colombia. I do think it is a model for advise 
and assist and whole-of-government operations.
    Admiral, thank you for coming by yesterday. You know, as a 
number of my colleagues have stated, I think I had a back-and-
forth with my good friend Tucker Carlson of Fox News on why 
should the American people care, really, of what is going on 
down in Venezuela?
    And I reminded him that the migration problem, the refugee 
problem from Venezuela is approaching the levels that we saw in 
Syria, and that we are approaching 3 to 5 million refugees by 
the end of 2019, destabilizing the area. I think that it is 
important for us to really take that message out on what this 
can do, what the Cubans, Russians, and Chinese are doing, not 
only in Venezuela but doing it in Nicaragua as well, where we 
are also seeing a refugee flow.
    So, given that dynamic, do you think it is a time, Admiral 
Faller, for a coalition, humanitarian, forcible if necessary 
intervention? Do you think from a logistics and military 
standpoint that the Colombians, the Brazilians, possibly the 
French and Dutch are ready with U.S. leadership to have that 
intervention? And do you think it would do more harm than--I 
mean, do you think it would do more good than harm?
    Admiral Faller. I would start with the level above that, 
Congressman, where it is time for a plan for the hemisphere. We 
talked about Plan Colombia, we need a plan for this hemisphere, 
and an initiative that recognizes the importance of this 
hemisphere, with all the various security dimensions that have 
been discussed today, including the impact that this Venezuela 
crisis particularly has on all of us; this mass migration.
    To the point of the partner unity, extremely important that 
the partners are unified partners, and the allies--the Dutch, 
the French, the U.K. [United Kingdom], the Canadians--to the 
extent that the diplomatic solution needs that kind of bulk 
that militaries can bring to humanitarian intervention, I know 
in the U.S. we are prepared to support. So, diplomatically led 
and----
    Mr. Waltz. And I completely agree with you. We need a 
broader Plan Latin America. But in the immediate term, while we 
are at an inflection, a crisis point in Venezuela, do you think 
that intervening with a humanitarian, coalition-led, is a 
viable option at this point?
    Admiral Faller. There is a----
    Mr. Waltz. Would you recommend it?
    Admiral Faller. There is a need for humanitarian 
assistance; it ought to have an international and USAID or an 
Organization of American States face. And if asked, militaries 
would be our military and partners, I think, willing and ready 
to help support the----
    Mr. Waltz. Do you think that the----
    Admiral Faller. We have seen that already with the staging 
in Colombia and Brazil.
    Mr. Waltz. Do you assess that the Cuban security forces--
which I have seen estimates ranging from 3,000 upwards of 
20,000--Cuban security forces on the ground, protecting Maduro, 
do you think they would oppose militarily a coalition 
intervention, particularly with Colombian and Brazilian 
involvement?
    Admiral Faller. I wouldn't want to speculate what the 
Cubans would or wouldn't do. I think they are as--as likely as 
unpredictable as the Russians. There would have to be some 
level of cooperation and invitation from the legitimate Guaido 
government to make this work.
    Mr. Waltz. Do you think it would be--completely agree. Do 
you think it would be helpful if Guaido offered amnesty and 
more overtly offered amnesty?
    Admiral Faller. Well, the----
    Mr. Waltz. In terms of peeling away Maduro-loyal military 
officers?
    Admiral Faller. The amnesty offer is open. And as I 
understand it, they are moving forward towards enacting that in 
legislation. That would be very helpful if the National 
Assembly passed that as part of the package. But I think there 
is plenty of teeth to the amnesty. And again, the message I 
would have for the military is, believe in us. The world is 
united. There will be amnesty. There will be a place in our 
schools. There will be a place to partner with us when there is 
a legitimate democracy.
    Mr. Waltz. What do you assess is the Russian presence on 
the ground in terms of either military, Wagner Group, you know, 
surrogates, and what is their current mission and guidance and 
role?
    Admiral Faller. We saw recently additional flights in, 100 
or so--technical, special forces, other advisors. There are 
other Russians present. I wouldn't want to discuss in an open 
hearing what our estimate of their presence are, but it is 
significant and it is contributing to the devastation.
    Mr. Waltz. Thank you, Mr. Chairman. I yield.
    The Chairman. Thank you very much.
    Ms. Escobar.
    Ms. Escobar. Thank you, Chairman, and good morning. Thank 
you all so much for your testimony this morning. And, 
gentlemen, thank you especially for your service. Very grateful 
for it.
    Mr. Rapuano, the fiscal year 2016 NDAA had a provision in 
it entitled, Section 1059, Department of Defense Authority to 
Provide Assistance to Secure the Southern Land Border of the 
United States. In communications with Congress, the Department 
of Defense has cited this as one of their authorities for 
deploying service members to the southern border, including my 
community, El Paso, Texas.
    This authority requires a DOD report every 3 months. And 
yet, as we approach 6 months of Active Duty support at the 
southern border, this committee has not received a single one 
of these reports. The first report would have been due the 
first week of February. Why hasn't the Department adhered to 
the law that they are citing and submitted the required report?
    Secretary Rapuano. Congresswoman, I am familiar with 1059. 
I will get more familiar with the reporting requirement. I will 
follow up on that and ensure that we follow up if we are not 
complying with our obligations.
    Ms. Escobar. Great. And would you be able to have a 
timeline for when this committee and myself, in particular, 
would receive a copy of this report?
    Secretary Rapuano. As fast as I can help make it happen.
    Ms. Escobar. Okay. Thank you. I would appreciate that.
    Admiral, I so appreciated your perspective on having a plan 
for the hemisphere. As I mentioned, I represent El Paso, and we 
have seen a significant influx of, essentially, asylum seekers 
arriving at our front doorstep. And I agree with the chairman 
when he says that really the best way to address what is a 
significant humanitarian challenge is to address what is 
happening in the Northern Triangle.
    I, myself, have called for hemispheric collaboration and 
cooperation. This is a shared responsibility and duty. So with 
that in mind, and because I so appreciated that comment you 
made, can you speak to the effort SOUTHCOM is engaged in in the 
critical Northern Triangle region to address the root causes of 
these immigration flows? Do you think you can positively impact 
this humanitarian challenge that we are facing?
    Admiral Faller. We are working with our partners in 
Honduras, El Salvador, Guatemala, Belize--not traditionally 
considered part of the Northern Triangle, but part of that 
region--to work on professional forces. Professional forces 
have legitimacy with their people.
    We have a human rights program that is now in its 20th 
year. We talk about human rights at every venue. We hold 
training and I have found them very receptive. But it is a long 
process and there is a history to everything. We also have 
noncommissioned officer, NCO, training and development.
    The backbone of our forces are our enlisted. And to the 
extent that we can grow that and build that in our partner is 
very important. And they are in, from our perspective. They are 
all-in. But again, it is something you have to really work on 
with a longer view.
    Another aspect of this is just general professional 
military education and training. The Western Hemisphere 
Institute for Security at Fort Benning, we put upwards of about 
2,000 enlisted officers through that school a year. Range of 
courses that deal at the heart and sharing common doctrine, 
training, and tactics with our partners that helps them go back 
and be more interoperable with us on drug enforcement missions, 
security/stability-type missions.
    At the institution level, the Perry Center here in 
Washington, DC, is a place where they teach the classes in 
Spanish. It is over at--in adjunct with the National Defense 
University. And we bring through--at the institutional level, 
we are trying to teach our partners the best practices in 
budgeting and programming and planning so that the important 
security dollars that they have or that we contribute can be 
used effectively and appropriately.
    All these tools, we are working each and every day that--it 
is not very high dollar, but it has high impact. And we can 
measure and see that impact over time. It is working.
    Ms. Escobar. And so, Admiral, I take it that you believe 
that the aid that we provide to the Northern Triangle is 
crucial to that success.
    Admiral Faller. The mil-to-mil security cooperation that we 
are working is showing demonstrated results that are improving 
the security of the homeland of the United States. Can our 
partners do more? They can. I have spoken to all their Chiefs 
of Defense in recent weeks and their ministers. They are 
committed to do more. And next week, we will host a security 
conference to ask them to do more. And we will work towards 
that goal.
    Ms. Escobar. Thank you. Chairman, I yield back my time.
    The Chairman. Thank you very much.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Doing a little bit of research, Nicolas Maduro is quite 
clearly a socialist, but he was elected to the National 
Assembly as far back as the year 2000 and then was elected 
again with Chavez in 2012/2013, this time as vice president. 
And finally, in 2013, was elected president with 50.6 percent 
of the vote, more or less. Of course, there is always debate 
about legitimacy of elections that we are familiar with.
    When we look at Juan Guaido, he helped found the social-
democratic Popular Will party. The research suggests that that 
is also a socialist organization. Certainly, it is a supporter 
of the Socialist International entity. He was elected in 2015 
to the National Assembly with 26 percent of the vote. And the 
National Assembly later promoted him to the status that he has 
now.
    Given that it appears that the fight is between two 
different sets of socialists, both of whom, at least in the 
original day in which they got into politics, were elected, is 
there anything that suggests to you--and feel free, any of you 
that wish to answer--is there anything that suggests to any of 
you that Guaido, if he does assume power in Venezuela, will not 
also turn out to be a dictator, much like Maduro ended up 
being?
    Ms. Wheelbarger. I think the important thing to recognize, 
too, in the recent history of when you talk about these are 
both elected officials, is the clear indications of 
illegitimacy of the last election. And the international 
community recognizing that there weren't just questions about 
the elections, but that it was pretty clear that Maduro secured 
himself a continued position.
    And that is unique now in this particular time versus 
previous periods of protests within Venezuela, where Maduro 
clearly didn't have the support of his people, is now we do 
actually have a recognized alternative opposition that can 
replace him. Whereas, in the future, you don't ever know what 
in the future can bring.
    What we do know is right now we are living under a regional 
disaster caused by one man's desire to continue to rule that 
population illegitimately. And as Admiral Faller has described 
in the great detail the level of, you know, harm he has brought 
to his own citizenry is not something that we could sit back 
and just ignore.
    And so the fact that we do have an opposition leader who we 
recognize as the legitimate interim president, that the 
international community and the people in Venezuela can rally 
behind is a significant difference from the past few years.
    Mr. Brooks. Well, we know that Maduro has become a 
dictator, but we also know that it's economic policies founded 
in socialism that have wreaked havoc with that economy as 
socialism has done with so many economies around the world at 
various periods of time.
    Do you know anything about Guaido that would suggest that 
he ultimately would not become dictatorial, too, which is the 
essence of socialism, where the government is dictating to the 
populace what they can and cannot do in an economic ballpark. 
Anything about Guaido that would suggest that he ultimately 
would not follow that same dictatorial path?
    Ms. Wheelbarger. I don't think we should assume that he 
would follow a dictator path. So, I think the evidence that we 
have of hope in him is the communications and the relationship 
we already have between him, his people, and most directly our 
Department of State.
    Mr. Brooks. All right. And again, this is a different 
question. Any of you all want to chime in, please do so. There 
have been different suggestions that China, Russia, and Cuba 
have been involved economically, perhaps even militarily in 
trying to prop up the Maduro regimes. Is there some way that 
you all can try to quantify how much each of these three 
nations are propping up Maduro?
    Admiral Faller. I will take that. The estimates of Cuban 
military strength range between 2,000 and 20,000. Those are 
accurate. All the guards that surround Maduro are all Cuban----
    Mr. Brooks. That is a pretty big gap, 2,000 to 20,000.
    Admiral Faller. It is a big gap. It is----
    Mr. Brooks. All right. I am sorry. Keep going.
    Admiral Faller. The Russian strength is significant. 
Recently saw 100 personnel fly in, special forces that are 
involved in cyber, they are involved in air defense, they are 
involved in technical training aspect. They recently 
commissioned a helicopter maintenance facility. Most of the 
gear--the kit that Venezuelan military uses, a lot of it is 
Russian. And China's in there a way that goes far beyond soft 
power. As I mentioned in my opening statement, in the 
information space as well.
    Mr. Brooks. Thank you, Mr. Chairman. I see my time has 
expired.
    The Chairman. Thank you, Mr. Brooks.
    Ms. Luria.
    Mrs. Luria. So, Admiral Faller, on Sunday of this week, you 
relieved Admiral Ring as the commander of the Joint Task Force 
overseeing the prison at Guantanamo Bay. This happened a day 
after The New York Times published a story where he was 
critical of the long-term plans for the prison. Was his firing 
a result of this criticism?
    Admiral Faller. The relief for cause of Admiral Ring was in 
no way related to any media reporting.
    Mrs. Luria. Okay.
    Admiral Faller. It was a result of loss of confidence and 
an investigation that completed long before any of the----
    Mrs. Luria. Did anyone outside of Southern Command direct 
or encourage you to fire Admiral Ring?
    Admiral Faller. No. That decision was mine.
    Mrs. Luria. Okay. So, for the record, you are saying his 
firing was unrelated to anything reported in The New York 
Times.
    Admiral Faller. Correct.
    Mrs. Luria. Switching subjects, what percentage of your 
2019 request for forces, specifically for surface combatants, 
was met?
    Admiral Faller. We received no Navy ships in our 2019 
request.
    Mrs. Luria. Okay.
    Admiral Faller. After the request, we did receive some 
fills for exercises, and Navy came through with littoral combat 
ship.
    Mrs. Luria. So, to move on, on the impact of that, you 
previously said today that only 6 percent of the drug shipments 
that are known are actually interdicted. I can only assume that 
this low level is a direct result of the fact that you don't 
have any, specifically, Navy assets to help intercept those.
    And in your comments, you also said all elements of the 
U.S. Government are laser-focused on this problem of, you know, 
stopping drugs flowing into our country. But would you agree 
that we are not allocating an appropriate amount of naval 
assets to work in conjunction with the U.S. Coast Guard, 
potentially LEDETs [law enforcement detachments] on Navy 
platforms in order to help this problem?
    Admiral Faller. The area is the size of the United States, 
as you know, and we have, on any given day, 6 to 10 Coast Guard 
cutters. And now we do have a Navy PC [Patrol Coastal ship] and 
a USNS [United States Naval Ship] fast transport ship, so not--
not adequate enough forces----
    Mrs. Luria. So, you mentioned the EPF [expeditionary fast 
transport], the fast transport ship, do you find that an 
effective platform in conjunction with Coast Guard LEDETs to be 
able to help for a much lower cost than, say, a DDG [guided-
missile destroyer] or cruiser operating in the area to be able 
to get after this problem?
    Admiral Faller. Congresswoman, the finishing part of that 
discussion on the Navy's readiness, which I have knowledge of, 
is certainly impacted here, too. So, when we look globally, 
there is just not enough naval assets. The EPF is a good 
platform. There needs to be some fixes made, Military Sealift 
Command and the Navy, to a couple of the systems that assist 
in----
    Mrs. Luria. Okay.
    Admiral Faller [continuing]. Seakeeping and boat launching. 
We get past those shortfalls, that platform will be a good 
platform for a detection and monitoring drug interdiction 
operation.
    Mrs. Luria. Thank you. And a final topic. We have talked a 
lot about Chinese and investment in the Panama Canal region and 
within South America. And some in the current administration 
have invoked the Monroe Doctrine when speaking of Latin 
America. Do you think the United States should use the concept 
of the Monroe Doctrine or an approach similar in Latin America 
regarding the increasing Chinese influence and Russian 
influence?
    Admiral Faller. I would leave the application of the Monroe 
Doctrine to policy and policy makers. The committed, enduring 
promise of partnership is what we ought to focus on and that is 
what we are focused on.
    Mrs. Luria. Would you see that any differently if this 
economic expansion and investment in port facilities and the 
different activities that you have described was expanded to an 
actual military base within South America?
    Admiral Faller. If we make the right investments in time, 
people, location, training, education, the full range of 
security cooperation, I am convinced that we will be the 
partner of choice and we will maintain those long-term 
relationships. It troubles me that China is on a path to have 
permanent bases in this hemisphere. I believe that they are, 
based on my own assessments of their intent and capability 
around the world.
    Mrs. Luria. So, to dovetail further on the discussion about 
naval assets and your ability to conduct drug interdiction 
mission, I would only assume the fact that you had zero assets, 
you know, intentionally, deliberately allocated to you for your 
mission last year, the same thing would apply that you don't 
feel like you have the sufficient naval assets to show presence 
in the region or to do theater security cooperation with our 
allies as far as naval assets is concerned.
    Admiral Faller. Congresswoman, absolutely. The two go hand 
in hand. We have created a concept with our 4th Fleet to build 
a combined maritime task force with U.S. naval leadership and 
naval assets. We believe that will bring more out of our 
partners as we work and train together, both for the drug 
mission and across all the range of missions that we have in 
this hemisphere.
    Mrs. Luria. But just to clarify, it is a little bit hard to 
do that if you don't actually have any ships assigned to the 
4th Fleet.
    Admiral Faller. You absolutely can't win a football game 
without players on the field.
    Mrs. Luria. Thank you.
    The Chairman. Thank you very much. That concludes our 
hearing. I thank you for your testimony and all the members for 
their questions. And we are adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                              May 1, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 1, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
    
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 1, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. GAETZ

    Admiral Faller. At this time, we are unable to determine how this 
type of prohibition would impact our capabilities or operations. It 
will take some time to develop and coordinate a list of people or 
companies with ties to the Maduro regime and to work with other U.S. 
Government agencies to prevent the award of new contracts and terminate 
pre-existing business relationships.   [See page 40.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. CISNEROS
    Secretary Rapuano. The projects under consideration for possible 
deferral do not include family housing, barracks, or dormitory 
projects; projects that have already been awarded; or projects that are 
expected to have fiscal year 2019 award dates. Furthermore, the Acting 
Secretary directed that the Comptroller's review of projects under 
consideration for possible deferral rely heavily on prioritization from 
DOD Components. The Department is also confirming that projects have 
award dates in fiscal year 2020 or later to minimize effects on 
readiness and to be consistent with the strategic approach in the 
National Defense Strategy.   [See page 29.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 1, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. In your written testimony, you noted that NORTHCOM 
worked with the Department of Homeland Security to prepare for 
Hurricane Florence in September 2018, which decimated Camp Lejeune. 
Considering that you, Admiral Faller, commented in your testimony that 
we live in a neighborhood that ``experiences approximately 50 natural 
disasters every year, of almost every type'' I am concerned that 2018 
was just a preview of the climate change intensified weather events 
that are to come. What are you doing to prepare for this eventuality, 
prepare our installations, and support our partners?
    Admiral Faller. USSOUTHCOM takes a variety of measures to prepare 
for adverse weather events and natural disasters that impact our area 
of responsibility every year. We work to maintain and build readiness 
of U.S. forces for a range of missions by tailoring bilateral and 
regional exercises and training events, including humanitarian 
assistance and disaster response. During the TRADEWINDS and FAHUM 
annual exercises, U.S., Partner Nations, and Regional organizations 
practice collaboration and coordination to limit the impacts of the 
weather systems often attributed to climate change. We work closely 
with our partner nations and regional coordination mechanisms such as 
the Caribbean Disaster Emergency Management Agency (CDEMA), the 
Regional Security System (RSS), the Coordination Center for the 
Prevention of Natural Disaster in Central America (CPREDENAC), and 
support to the development of the Multinational Caribbean Coordination 
Center to build our collective capacity to respond to and/or coordinate 
disaster relief efforts. We've seen a decrease in requests for 
assistance following these disasters because our partners are 
increasingly prepared to handle the responses themselves. USSOUTHCOM 
also considers environmental challenges such as earthquakes, hurricanes 
and flooding in its planning. Additionally, to ensure our own personnel 
and families are ready, SOUTHCOM conducts annual hurricane preparedness 
training for all personnel assigned to our headquarters in Miami. 
Furthermore, USSOUTHCOM also focuses deployments of its limited forces 
during hurricane season. This includes the deployment of the USNS 
COMFORT when it's available and a Special Purpose Marine Air Ground 
Task Force that is sourced for six months every year. Knowing these are 
not permanent presence in the region, we opt to employ them during 
hurricane season so they are already pre-positioned in the event of a 
disaster response. Finally, USSOUTHCOM invests DOD humanitarian 
assistance funds to build partner nation capacity to prepare for and 
respond to natural disasters. We constantly assess the underlying 
factors that predispose a country to disasters and the effectiveness of 
the partner nation's disaster response enterprise to develop targeted 
projects to build their resilience to withstand shocks and disruptions 
resulting from disasters.
    Mr. Langevin. In your opinion, will additional operational capacity 
and capability at CISA aid in coordination with your command? Will it 
help ensure DOD personnel are better able to continue DOD missions even 
in a time of crisis?
    General O'Shaughnessy. The Cybersecurity and Infrastructure 
Security Agency (CISA) provides additional capacity and capability 
essential to defense of critical infrastructure that is outside of the 
Department of Defense's (DOD) control. This critical infrastructure 
supports USNORTHCOM's homeland defense mission. Further, CISA's 
capabilities reduce the demand signal to DOD to provide forces that 
execute under CISA authorities. These high demand DOD forces can 
instead be applied to directly defend DOD infrastructure and further 
enable USNORTHCOM's homeland defense mission.
    Mr. Langevin. In your testimony you acknowledge the changing nature 
of missile defense and the need to look increasingly to directed energy 
systems. These technologies are vital to our nation's ability to defend 
itself from all manner of threats. As we transition to these 
technologies, how do you expect to employ them in defense of the nation 
and what are you doing to prepare for this change?
    General O'Shaughnessy. Due to the complexity and evolution of 
missile threats, I believe we need missile defense technology that is 
lethal, reliable, and resilient in order to defend the homeland now and 
keep pace with the future threats. I will remain fully engaged with the 
Missile Defense Agency as directed energy and other advanced weapons 
concepts mature, as the capabilities would be complementary to the 
existing Ground-based Midcourse Defense system and enhance our homeland 
defense. Using advanced technologies to destroy missiles in the early 
stages of flight also provides the potential to reduce the cost per 
shot for intercepting missiles. Specifically, as part of an ongoing 
layered approach for missile defense in the future, I will consider 
each weapon's contribution to the broader ballistic missile defense 
system for an optimal employment strategy.
    Mr. Langevin. In your written testimony, you noted that NORTHCOM 
worked with the Department of Homeland Security to prepare for 
Hurricane Florence in September 2018, which decimated Camp Lejeune. I 
am concerned that 2018 was just a preview of the climate change 
intensified weather events that are to come. What are you doing to 
prepare for this eventuality, prepare our installations, and support 
our partners?
    General O'Shaughnessy. In my role as the Department's Defense 
Support of Civil Authorities (DSCA) Synchronizer, I coordinate and 
collaborate across the whole-of-government to ensure application of 
effective and efficient military capability in order to fulfill a lead 
federal agency request for assistance. Annually, USNORTHCOM conducts a 
week-long DSCA preparedness workshop with over 400 DOD and interagency 
participants. The focus of this workshop is to increase our 
preparedness prior to a disaster so that we are more effective in our 
response when a disaster does occur. We conduct two annual exercises 
per year and conduct a thorough after action review assessing best 
practices, lessons learned, and ways to improve our response efforts. 
Following both hurricane and wildland firefighting seasons, we also 
conduct after action reviews to assess what we did right and determine 
ways we could have supported our partners more effectively in 
anticipation of future events. Additionally, through our Joint 
Interagency Coordination Group, we regularly partner with industry and 
other Government organizations to increase and develop a common 
operating picture how we will seamlessly be required to respond when 
disaster occurs. All of these efforts increase the level of 
preparedness for both Department of Defense personnel and our partner 
organizations, resulting in a more timely and effective response to 
natural disaster occurrences.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. Aside from parameters stating that military housing 
and projects that have been already awarded or will be awarded in 
fiscal year 2019 will be excluded from consideration, what are the 
criteria by which military construction projects will be selected for 
deferment in order to pay for a border wall?
    Secretary Rapuano. The projects under consideration for possible 
deferral do not include family housing, barracks, or dormitory 
projects; projects that have already been awarded; or projects that are 
expected to have fiscal year 2019 award dates. Furthermore, the Acting 
Secretary directed that the Comptroller's review of projects under 
consideration for possible deferral rely heavily on prioritization from 
DOD Components. The Department is also confirming that projects have 
award dates in fiscal year 2020 or later to minimize effects on 
readiness and to be consistent with the strategic approach in the 
National Defense Strategy.
    Mr. Cisneros. Last year, the World Bank reported that climate 
change could lead at least 1.4 million people to flee their homes in 
Mexico and Central America and migrate during the next three decades. 
Does the Department believe climate change is one of the factors 
driving migration patterns and how has the Department accounted for 
climate change in its approach to the region? What are the national 
security implications of climate change on the region?
    Ms. Wheelbarger. I defer this question to the appropriate Executive 
Branch departments and agencies as DOD is not responsible for 
projecting migration flows. DOD works with the Mexican and Central 
American militaries to address humanitarian assistance and disaster 
relief activities most effectively in response to manmade and natural 
disasters.

                                  <all>
</pre></body></html>
